<html>
<title> - THE BLUE ECONOMY: THE ROLE OF THE OCEANS IN OUR NATION'S ECONOMIC FUTURE</title>
<body><pre>[Senate Hearing 111-46]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-46

   THE BLUE ECONOMY: THE ROLE OF THE OCEANS IN OUR NATION'S ECONOMIC 
                                 FUTURE

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation













                  U.S. GOVERNMENT PRINTING OFFICE
50-769                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             JOHNNY ISAKSON, Georgia
JOHN F. KERRY, Massachusetts         DAVID VITTER, Louisiana
BARBARA BOXER, California            MEL MARTINEZ, Florida
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 2009.....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Snowe.......................................     2
    Prepared statement...........................................     4

                               Witnesses

Judith T. Kildow Ph.D., Director, National Ocean Economics 
  Program........................................................     6
    Prepared statement...........................................     8
Alexandra Cousteau, Founder and President, Blue Legacy 
  International..................................................    11
William Fenical, Distinguished Professor of Oceanography and 
  Pharmaceutical Science, Scripps Institution of Oceanography, 
  University of California.......................................    12
    Prepared statement...........................................    14
Brad Warren, Sustainable Fisheries Partnership...................    16
    Prepared statement...........................................    18
Deerin Babb-Brott, Assistant Secretary of Oceans and Coastal Zone 
  Management, Massachusetts Executive Office of Energy and 
  Environmental Affairs, Commonwealth of Massachusetts...........    21
    Prepared statement...........................................    23
Willett Kempton, Ph.D., Associate Professor, College of Earth, 
  Ocean and Environment, and Director, Center for Carbon-free 
  Power Integration, University of Delaware; Chair, R&D 
  Subcommittee, Offshore Wind Working Group, American Wind Energy 
  Association....................................................    31
    Prepared statement...........................................    33

                                Appendix

John D. Rockefeller IV, U.S. Senator from West Virginia, prepared 

  statement......................................................    51

 
                       THE BLUE ECONOMY: THE ROLE
                          OF THE OCEANS IN OUR
                        NATION'S ECONOMIC FUTURE

                              ----------                              


                         TUESDAY, JUNE 9, 2009

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. The Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard will come to order.
    Welcome to our panelists this morning. I would like to 
thank my colleague Senator Snowe, who I am sure is going to 
join us shortly, for helping to participate in today's hearing.
    Today, we are trying to shine a spotlight on the Blue 
Economy and its contribution to our Nation's economic health 
and revitalization. The Blue Economy, the jobs and economic 
opportunities that emerge from our oceans, Great Lakes, and 
coastal resources, is one of the main tools to rebuilding the 
U.S. economy.
    America, from Fort Lauderdale, Florida, to Seattle, 
Washington, and as far inland as Topeka, Kansas, rely on our 
oceans for numerous goods and services--for food to fuel to 
rain for crops and, obviously, the great work we are going to 
hear about today, cures for cancer.
    Today, the ocean and coastal economies of the U.S. provide 
over 50 million jobs for Americans and contribute nearly 60 
percent of our GDP. We also rely on our oceans for trade in 
goods vital to our economy. Nearly 80 percent of U.S. imports 
and export freight is transported through our seaports.
    And in my home State of Washington, our history and our 
economy are based on a rich maritime tradition that contributes 
as much as $3 billion for commercial fishing alone. For 
example, there are over 3,000 vessels in Washington's fishing 
fleet, and it employs over 10,000 fishermen.
    There is great untapped wealth in our oceans, and that will 
lead to new jobs and new business opportunities. Fungus living 
on seaweed, bacteria growing in deep sea mud, sea fans may all 
hold the key to curing cancer and other deadly diseases. And 
aquaculture is a growing industry along our shorelines and in 
the deep blue waters.
    And concern with climate change is fueling interest in new 
blue jobs in renewable energy resources. According to a report 
released yesterday by the National Ocean Economics Program, the 
strength of the Blue Economy is dependent upon the health of 
our oceans and our coast, and today, our oceans are in peril.
    Climate change, ocean acidification, pollution, 
overfishing, rising sea levels, and marine debris all have 
economic, social, and environmental impacts to our coast, to 
our oceans, and coastal economies. Protecting our oceans is an 
environmental and economic imperative.
    There are steps that we need to take to maintain our Blue 
Economy. First, we must pass climate change legislation to 
reduce our carbon emissions, and second, we must strengthen the 
National Oceanic and Atmospheric Administration by doubling its 
budget over the next 4 years and creating a strong mission 
through an organic act that doesn't exist at this point. Third, 
we must find new approaches to incorporating ecosystem-based 
management in our oceans.
    Our Blue Economy has been the foundation of our economy for 
centuries in the past, and it holds tremendous potential to 
growing economic opportunities for future generations. Our 
challenge is to strike a balance between maintaining the 
economic and social benefits of our oceans and coastline while 
protecting the vital marine ecosystem resources.
    Before I introduce the panel today, I would like to turn to 
my colleague, Senator Snowe. Again, thank you for being here 
and helping us coordinate on the holding of this hearing. And I 
will turn to you for your opening statement.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Madam Chair. Thank you very much 
for calling this hearing today and for helping accommodate 
schedules.
    It is a very difficult and challenging time. There are so 
many things going on at the same time. But I thought it was 
most appropriate to hold this hearing this week during Capitol 
Hill Ocean Week, to delve into some of the issues that are 
important to the oceans, but also to our Nation's economy.
    I am pleased to welcome this esteemed panel of witnesses 
today to discuss many of the issues that are so important, 
especially in the developments in your respective spheres.
    Today, the world's oceans face numerous threats toward 
their productivity and viability, including the looming threat 
of climate change. So, we must take stock of our ocean 
resources and examine the ways we can continue to utilize the 
goods and services our ocean provides, while simultaneously 
redoubling our efforts to ensure that we are using our oceans 
sustainably and also protecting them from the inevitable damage 
that will occur as a result of global climate change.
    So, I am delighted that all of you could be here today to 
discuss relevant developments in your fields of expertise and 
help inform the policies we will develop in this committee in 
the coming years and months.
    The more than 5,500 miles of coastline in my home State of 
Maine continues to shape our culture and our economy, as they 
have defined our heritage. The oceans have been truly the 
lifeblood of Maine's economy.
    In 2007, Maine's fishermen landed over 180 million pounds 
of fish valued at nearly $350 million. Still, this represents a 
precipitous decline from the industry's peak in the early 
1990s, particularly in the groundfish industry of cod, haddock, 
and flounder.
    Until the last few years, Maine's fishermen made their 
living pursuing a diverse number of species, including 
groundfish, shrimp, lobsters, scallops, among others. Yet 
increasingly, our fishermen have been dependent on a single 
species. In 2007, over 80 percent of the value of Maine's catch 
came from lobster. This kind of consolidation is extremely 
perilous for our coastal communities, which rely heavily on the 
fishing industry and its affiliated businesses to survive.
    Meanwhile, additional uses of ocean spaces are emerging 
that can contribute not just to our economy, but to the future 
of energy generation and climate policy. And just this last 
Friday, I joined the Governor of Maine and the Congressional 
delegation to meet with Secretary Chu about developing an 
offshore wind energy research development center at the 
University of Maine.
    Today, the average Maine family spends 20 percent of their 
household budget on energy. That is expected to expand to 40 
percent within the next 10 years.
    Meanwhile, off the coast of just the Lower 48 States, we 
have wind resources capable of producing enough energy to 
exceed our Nation's total energy demand. And just off the coast 
of Maine lies wind resources that can generate energy 
equivalent to approximately 40 nuclear power plants.
    Technology is currently available to harness the winds in 
shallow water, but we must push the envelope. Developing 
deepwater offshore wind technology capable of operating farther 
from our coasts where the winds are stronger and more 
consistent can help reform energy generation in Maine, 
throughout the Nation, and across the globe.
    Maine is certainly uniquely positioned to be a leader in 
this effort. The oceanographic conditions in our State waters 
have excellent wind resources and water deep enough to deploy 
floating turbines, and that is going to be critically 
important. So, hopefully, we can explore the potential of this 
enormous opportunity for the State, as well as our country. It 
means thousands of jobs that can be created nationally, and it 
certainly means a clean energy future for generations.
    I want to again thank our panel of witnesses for their 
efforts to be here today. And I also want to recognize Dr. 
Kildow and her report. I know she co-authored it with Dr. 
Charles Colgan, who is a Professor as well as the Chair of the 
Community Planning Development Center at the University of 
Southern Maine at the Muskie School of Public Service.
    And I thought some of the statistics were truly 
fascinating, and I think it really does explain the scope of 
what we are talking about in terms of the use of the oceans and 
what they contribute to our Nation's economy and the coastal 
communities. And I am staggered by the fact that when you think 
about what you mentioned in your report that coastal counties, 
just 18 percent of the U.S. land area, contribute 42 percent of 
the U.S. economic output in 2007. The coastal States account 
for 83 percent of the U.S. economy.
    I think that those are the statistics and facts that have 
to be heralded as to why we have to do everything we can to 
preserve the way of life in our coastal communities, the 
oceans, and what they represent, both for our energy purposes 
or for climate change, for our ecosystems, for our habitats. 
And people just truly don't understand the dimensions to which 
it contributes to this Nation and for generations to come.
    So I very much appreciate you all being here today and your 
expertise. And if I have to leave early, please forgive me. I 
have another meeting on healthcare. What is coming up is we are 
beginning on healthcare reform. But I want to thank you all 
very much for being here, and I will certainly submit questions 
if I can't be here for the question period.
    Thank you, Madam Chair.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Madam Chair, for calling this hearing today to delve 
into the incredibly vital role the oceans play in our Nation's economy. 
It is appropriate that we have taken the opportunity presented by 
Capitol Hill Oceans Week to convene this in-depth discussion.
    I am pleased to welcome this esteemed panel of witnesses here today 
to delve into these issues and update us on developments in their 
respective fields. Today, the world's oceans face numerous threats to 
their productivity and viability, including the looming threat of 
climate change. So, we must take stock of our ocean resources and 
examine the ways we can continue to utilize the goods and services our 
oceans provide while simultaneously redoubling our efforts to ensure 
that we are using our oceans sustainably, and also protecting them from 
the inevitable damage that will occur as a result of global climate 
change. Dr. Kildow, Ms. Cousteau, Dr. Fenical, Mr. Warren, Mr. Babb-
Brott, and Dr. Kempton, I thank you all for taking the time to be here 
today to discuss relevant developments in your fields of expertise and 
help inform the policies we will develop in this Committee in the 
coming months and years.
    Eons ago, the oceans began carving bays, inlets, and islands to 
form the more than 5,500 miles of shoreline in my home state of Maine, 
which continue to shape our culture and economy as they have defined 
our heritage. From the first settlers who hauled their food from the 
bounty of the Gulf of Maine to the proud ships that have been built at 
Bath Iron Works since 1888, to today's efforts to develop and deploy 
offshore renewable energy technology that can help wean our state from 
dependence on fossil fuels and foreign oil, the oceans have been the 
lifeblood of Maine's economy.
    In 2007, Maine's fishermen landed over 180 million pounds of fish 
valued at nearly $350 million. Still, this represented a precipitous 
decline from the industry's peak in the early 1990s, particularly in 
the groundfish industry--cod, haddock, and flounder. Until the last few 
years, Maine's fishermen made their living pursuing a diverse number of 
species including groundfish, shrimp, lobster, scallops, and others. 
Yet increasingly, our fishermen have been dependent on a single 
species. In 2007, over 80 percent of the value of Maine's catch came 
from lobster. This kind of consolidation is extremely perilous for our 
coastal communities which rely heavily on the fishing industry and its 
affiliated businesses to survive. Which is why I have worked diligently 
with the National Marine Fisheries Service to implement a new 
regulatory structure in the groundfish industry that promises to make 
our fishery more profitable today and more sustainable for future 
generations.
    Meanwhile, additional uses of ocean space are emerging that can 
contribute not just to our economy, but to the future of our energy 
generation and climate policy. Just last Friday, I joined Governor 
Baldacci and my colleague Senator Collins in a meeting with the 
Secretary of Energy to express our support for establishing a deepwater 
offshore wind energy research and development center at the University 
of Maine. Today, the average Maine family spends 20 percent of their 
household budget on energy costs, a figure projected to grow to 40 
percent within 10 years. Meanwhile, off the coasts of just the Lower 48 
states, we have wind resources capable of producing enough energy to 
exceed our Nation's total energy demand. And just off the coast of 
Maine lies wind resources that can generate energy equivalent to 
approximately forty nuclear power plants.
    Technology is currently available to harness the winds in shallow 
water, but we must push that envelope. Developing deepwater offshore 
wind technology, capable of operating further from our coasts where the 
winds are stronger and more consistent, can help reform energy 
generation in Maine, throughout the Nation, and across the globe. Maine 
is uniquely positioned to be a leader in this effort--with the research 
capabilities already in place at the University of Maine in Orono, 
oceanographic conditions in our state waters with excellent wind 
resources and water deep enough to deploy floating turbines near shore 
in state waters, and legislation now in place--signed into law just 
last week--facilitating the testing of offshore wind turbines. Here we 
have an industry with the potential to bring tens of billions of 
dollars in investments and thousands of jobs to our state and the 
Nation, the result of which would be a clean energy future for future 
generations.
    Once more, I thank our panel of witnesses for their efforts to be 
here today, and I look forward to an enlightening discussion. Without 
stealing too much of Dr. Kildow's thunder, I want to reference one 
statistic that clearly stood out to me in a 2009 report she co-authored 
with Dr. Charles Colgan, Chair of the Community Planning and 
Development Program at the University of Southern Maine's Muskie School 
of Public Service. Their report focuses on the state of the U.S. Ocean 
and Coastal Economies, and found that coastal counties--just eighteen 
percent of the U.S. land area--contributed forty-two percent of the 
U.S. economic output in 2007. As these findings make clear, our oceans 
truly hold the key to the future of our Nation's economy.
    I regret that prior conflicts dictate that I will not be able to 
remain with you for the entirety of this vital discussion, but I will 
have several questions which I hope our witnesses will be able to 
answer for me in writing to be included in the formal record of these 
proceedings. Thank you, Madam Chair.

    Senator Cantwell. Thank you, Senator Snowe. And thank you 
for that passion.
    Senator Martinez, would you--Senator Martinez, do you care 
to make an opening statement?
    Senator Martinez. No, thank you very much.
    Senator Cantwell. Well, thank you.
    We will now turn to our witnesses. And again, I want to 
thank them for being here today and for their expertise in this 
area. Let me just briefly introduce them.
    Dr. Judith Kildow, who is a social scientist and Director 
of the National Ocean Economics Program. Ms. Alexandra 
Cousteau, Founder and President of the Blue Legacy 
International. Dr. William Fenical, Director of the Center of 
Marine Biotechnology and Biomedicine of the Scripps Institute 
of Oceanography at the University of California. Mr. Brad 
Warren, Director of Ocean Health and Sustainable Fisheries 
Partnership, the Sustainable Fisheries Partnership in Seattle, 
Washington. Welcome. Mr. Deerin Babb-Brott, Assistant Secretary 
of Oceans and Coastal Zone Management, the Executive Office of 
Energy and Environmental Affairs, the State of Massachusetts, 
and Dr. Willett M. Kempton, Associate Professor for Marine 
Policy at the University of Delaware.
    So welcome to all of you. Thank you for participating in 
this important hearing.
    And we will start with you, Dr. Kildow.

        STATEMENT OF JUDITH T. KILDOW Ph.D., DIRECTOR, 
                NATIONAL OCEAN ECONOMICS PROGRAM

    Dr. Kildow. Good morning, Chair Cantwell and Senator Snowe 
and members of the Committee.
    My name is Judith Kildow, and I am Director of the National 
Ocean Economics Program.
    I want to thank you for inviting me to speak today, and I 
am here to summarize our new report, as you have referred to 
it, and would like to make three points in my testimony.
    First, that jobs and businesses generated by the coastal 
and ocean economies are the very foundations of the U.S. 
economy. The ocean and coastal economies are no longer a subset 
of the U.S. economy. They really are the U.S. economy. Second, 
coastal and ocean economies will power the Nation's economic 
recovery. And third, the deleterious effects of climate change 
will adversely affect the continuing growth of these important 
economies unless we take action to curb greenhouse gases soon.
    So the National Ocean Economics Program began 10 years ago 
with an idea that a value could be placed on a portion of the 
national economy that was linked to our coasts and coastal 
ocean. And you have seen the reports of the compilation of our 
data in the report that you referred to.
    But before beginning, I want to say two things about the 
report. First, to clarify what I will report on is that the 
coastal--we measured two economies. First, we measured the 
coastal economy, meaning all economic activity generated on 
land near the oceans, and then the ocean economy, meaning the 
economy generated by activities that depend on using the ocean 
and its resources. One is geography-based, the coastal economy. 
The other one is industrial-based, based on those industries 
that must have and use the ocean.
    My report also comes with a caveat. It underreports by a 
lot what the ocean economy is worth. It does not include a lot 
of sectors, such as pharmaceuticals that you will hear about 
today. It doesn't include real estate, which is a huge part of 
the financial sector. And it does not include research and 
development.
    These are categories that are not easily threaded out of 
the U.S. accounts from which we drew our data. So this is yet 
to come. I say this so that you will understand that the 
numbers that I report today are very underreported.
    But we did put together a report based on living marine 
resources, marine transportation, marine construction, coastal 
tourism and recreation, ship and boat building and repair, and 
offshore minerals.
    Now, how big is the impact of the coast and ocean 
economies? Well, Senators Cantwell and Snowe have really 
reported the numbers from our report. So I won't repeat what 
they have said. I will just summarize by saying that four out 
of five people who live in this country live along our coasts 
and generate more than 80 percent of the U.S. economy.
    This speaks volumes, and they also represent about 80 
percent of the jobs. The coast is the U.S. economy, and the 
coastal states are, and we can't deny this. If we look at the 
small band along the coast, what the impact is, this small band 
of shore-adjacent counties, which represents only a small 
portion of our country, we find that it represents more than 
half of the GDP for this country.
    This tiny, little band of coastal shore-adjacent counties 
represent almost 50 percent or more than 50 percent of our 
gross domestic product and equal amount of jobs and population. 
So we really are talking about a mega-economy that has really 
been either neglected or avoided in discussions about economic 
recovery.
    The other part that I want to report is that our fisheries, 
which I know are important to you, the value of U.S.-caught 
fisheries is one-half of the value of imported fisheries into 
this country, something that would have been inconceivable 
years ago.
    And finally, I would like to say that we looked at 
nonmarket values. These are extremely important. They go 
unreported most of the time, but it is the value of our 
recreational and natural resource assets along the coast--
estuaries, watersheds, beaches. These are worth hundreds of 
billions of dollars. We have studies on our website that 
describe these values and describe how experts have derived 
them.
    But this is a part of our economy we cannot ignore. It is 
the very foundation upon which the market economy is based, and 
it represents a huge savings.
    So the next question I want to refer to is what role the 
oceans and coastal economies have on the economic recovery. 
While all sectors of the coast and ocean economies are in 
decline now and will continue to shrink for the next few years, 
we should not misconstrue this as eliminating pressures on our 
coastal resources.
    In fact, this economy will rebound, and it will rebound 
stronger, and it will grow essentially across the board. And 
when this happens, we have to be mindful that we definitely 
conserve and manage our resources so that we can make sure that 
we have a healthy economy.
    Shipbuilding, marine construction, and other of the sectors 
will grow. They will actually stabilize the recovery. These are 
sectors that have fiscal and cyclical characteristics that will 
make the Nation's economy strong.
    Finally, how will climate change impact these economies? 
This question probably presents the greatest challenge of all, 
unimaginable in years ahead. The significant environmental 
changes that we know that are underway that you just mentioned 
of sea temperature rise and ocean acidification, et cetera, 
will affect our food supplies, the very air we breathe, and our 
water supplies at the very least.
    The landscape along the coast will definitely shift and 
change due to inundation and sea level rise. And shoreline 
communities that host these industries that are the foundation 
of the U.S. economy are going to have huge challenges in how to 
sustain their economies.
    The offshore industrial expansion and environmental 
protection efforts from new energy and food demands from water 
delivery and housing pressures, plus responses to environmental 
threats, will require creative management schemes akin to what 
coastal management strategies were since the early 1970s.
    We project on our team that over the next 30 years, the 
Nation will see the most significant changes in the ocean and 
coastal economies since the arrival of industrialization and 
urbanization.
    I hope you have found my summary useful and will take the 
time to read the full report that is found on our website and 
that we have distributed to your members today.
    One final note. Unfortunately, there are no funds to 
continue this work, so that this may be the only report of its 
kind. While everyone seems to want this information, no one 
seems to want to invest in collecting it.
    So I suggest that the Federal Government--that it is 
imperative that the Federal Government keep a set of oceans 
accounts somehow. Why? Because the oceans are too important to 
the United States economy to be overlooked.
    I thank you for your time and interest.
    [The prepared statement of Dr. Kildow follows:]

        Prepared Statement of Judith T. Kildow Ph.D., Director, 
                    National Ocean Economics Program
    Good morning Chairman Cantwell and Members of the Committee.
    My name is Judith Tegger Kildow and I am Director of the National 
Ocean Economics Program.
    I am here today to summarize a major report: ``State of the U.S. 
Ocean and Coastal Economies'' just released by my research team from 
the National Ocean Economics Program (NOEP) to kick off Capitol Hill 
Ocean Week. Let me first give you a bit of background about me and this 
report, and then provide you with the information I know you await.
    When I had the idea, 10 years ago, that a value could be placed on 
that portion of the national economy that was linked to our coasts and 
coastal oceans, ``they'' thought I was crazy. This was especially true 
at the university where I was a professor--MIT. They had good reason to 
think that. I was in the ocean engineering department, not the 
economics department. And I wasn't an economist; my Ph.D. is in 
international Science Policy. But there was good reason to pursue my 
idea:
    In 1983, the U.S. acquired an exclusive economic zone offshore of 
more than 4 million square miles that more than doubled U.S. territory; 
yet its value has barely been estimated until now, and its management 
is currently under intense discussions.
    I had the notion that I could identify all of the segments of the 
economy that depend upon a location near or on the ocean. I thought I 
could parse out what fishing really brings to the American economics 
menu. And marine transportation. Drilling for oil. Building ships. I 
thought I could even figure out the value of a day at the beach!
    I assembled an advisory board of world-class economists and other 
experts, including a Nobel laureate. Despite my doubters, I persisted, 
left MIT, and began a decade-long odyssey that would take the NOEP to 
the University of Southern California, the University of Vermont, 
California State University Monterey Bay, and the Monterey Bay Aquarium 
Research Institute. Basically, what I was doing was carrying a tin cup 
to any place interested in my ideas that might host me and my program 
and pony up a bit of money to finance the study.
    In the beginning I attracted interest from NOAA, which provided 
partial funding throughout much of the 10 years, especially the Coastal 
Services Center. And early on, I hooked up with Dr. Charles Colgan, a 
professor at the University of Southern Maine, who had the intellectual 
skills, and the grit and persistence, to fly down to Washington on a 
regular basis and immerse himself in the arcane national data bases 
that provide the details of the comprehensive report that we have just 
concluded.
    This was literally grunt work, especially for an academic like 
Charlie. But he labored in the trenches, gathering information compiled 
over many years using complex formulas that could separate ocean from 
non-ocean-related activities in a way that didn't violate disclosure 
rules, so that we would have a comprehensive database that embraced the 
entirety of two distinct, but overlapping, economies: the coastal 
economy, meaning all economic activity generated on the land near the 
oceans; and the ocean economy, meaning the economy generated by 
activities that depend on using the ocean and its resources. It can get 
confusing because the ocean economy and coastal economy are not the 
same, yet do overlap, so you cannot add them up to get a single number 
that represents the size of these two economies.
    But size is important here. The coastal economy alone--that is, the 
counties that border the oceans, Gulf of Mexico, and the Great Lakes--
totaled $5.7 trillion in 2007, despite comprising only 18 percent of 
U.S. land area, and where more than 108 million people reside and hold 
more than 48 million jobs. More than three-quarters of the growth of 
the entire U.S. economy has taken place in coastal states. 
Parenthetically, 83 percent of U.S. GDP is in those coastal states.
    The ocean economy--a smaller economy than the coastal economy--in 
2004 generated $138 billion, approximately 1.2 percent of the U.S. GDP, 
and provided 2.3 million jobs. This is equivalent in size to the U.S. 
insurance industry by employment and the motor vehicle parts industry 
by GDP.
    I would like to make two points here that I think important:
    First, the coastal and ocean economies will power the Nation's 
economic recovery.
    Second, the deleterious effects of climate change will adversely 
affect the continuing growth of these important economies unless we 
taken action to curb greenhouse gasses soon.
    My report comes with a caveat: it under reports the true size and 
impact of the coastal and ocean economies. This is because throughout 
the 10 years, we have not been able to fully utilize the data that are 
gathered by the Federal Government's North American Industrial 
Classification System, which is our primary source of information for 
market sectors. The NAICS accounts as established do not fully identify 
ocean-related activities. For example, data on the pharmaceutical 
industry does not categorize the significant amount of income generated 
by the industry from exploiting the riches of the sea to make drugs. 
Likewise we can only obtain data on coastal real estate by literally 
gathering it by hand--going to local sources to track transactions. If 
you've tried buying a house on the coast lately, you'll know that this 
is a significant omission.
    Nevertheless, we put together a report that measures the economies 
of these sectors with consistency so that they are comparable across 
geographies and sectors: living marine resources, marine 
transportation, marine construction, coastal tourism and recreation, 
ship and boat building and repair, and offshore minerals.
    Some off-the-top findings detailed in the report about the ocean 
economy:

  <bullet> The largest and fastest growing sector of ocean economy was 
        tourism and recreation with 1.7 million jobs or 75 percent of 
        ocean economy employment and $70 billion--that's more than half 
        of GDP; marine transportation was second largest with $27.6 
        billion, 20 percent of the ocean economy.

  <bullet> Total U.S. offshore oil production, 28 percent of all U.S. 
        oil production, was valued at <SUP>></SUP>$27 billion in 2004: 
        $3 billion in state waters, the rest in Federal waters. It is 
        apparent that the balance has shifted over the years and states 
        are not getting nearly the revenues that the Federal Government 
        is from these operations.

  <bullet> Total landed value of fish caught in U.S. waters was $3.7 
        billion in 2004--and that totals just half the value of 
        imported fish for that same year. Not so long ago, this would 
        have been unimaginable. Now farmed seafood is expected to make 
        up for this loss.

    These two economies, ocean and coastal, will drive the Nation's 
economic recovery in part just by sheer size, but also because of a 
rapidly growing non-market economy in these regions--in short, the 
value of a day at the beach. When Dr. Linwood Pendleton, recently a 
professor at UCLA and now a Fellow with the Ocean Foundation, joined 
our team, we were finally able to quantify the non-market economies, 
such as recreation, the allure of scenery and the wildlife viewing. 
Professor Jason Scorse from the Monterey Institute for International 
Studies continued this work, and found that values from this non-market 
economy exceed $100 billion annually, and will grow. It isn't expensive 
for families to partake of days at the beach, and they flock there in 
increasingly greater numbers, spending money that trickles into the 
local economies. You and I have come to appreciate the valuable 
services of storm buffering, pollution filtration and fishery nursery 
grounds provided by estuaries; the enormous recreational revenues 
generated by beaches and harbors, and the importance of stable 
shorelines to protect infrastructure ranging from homes to airports. 
The value of these services is not found in the marketplace, but needs 
to be accounted for as we plan for the challenges that lie ahead.
    While all sectors of the coastal and ocean economies are in decline 
along with the rest of the economy, changes over past decades have 
increased their contributions as a share of the national economy. Over 
the next few years, they will shrink, without doubt, causing some to 
think that the intense pressures on costal regions have abated so there 
is less need to protect these resources.
    That would be a serious mistake. The economy will recover 
generally, and historic coastal pressures will resume and intensify. 
This will result in growth essentially across the board. Ship building, 
for example, primarily for the U.S. Navy, marine construction, 
particularly for ports, and the offshore minerals industry will grow in 
part because of inherent cyclical characteristics, and because of 
Federal fiscal policy.
    How will climate change alter the future?
    First, there will be significant environmental changes, such as sea 
level and sea temperature rise, oxygen depletion, and ocean 
acidification. The landscape will change dramatically, restructuring an 
array of natural and physical assets as well as cultural and economic. 
In fact, our research team projects that over the next 30 years the 
Nation will see the most significant changes in the ocean and coastal 
economies since the arrival of industrialization and urbanization. 
Shoreline communities that host tourism, recreation, marine 
transportation, and marine construction will have to adapt to an 
increasingly hostile environment for both built structures, such as 
ports and harbors, and natural structures, such as beaches and 
estuaries.
    This is the first report of its kind about the United States--and 
likely the last. It was prepared by academics at three institutions and 
reviewed by experts in government, academia, and nongovernmental 
organizations. NOEP has developed the most detailed ocean valuation 
methodology available anywhere, and it is in use as a core template by 
other nations that are publishing ocean accounts, such as the United 
Kingdom, France, Canada, New Zealand, Australia, and the European 
Union.
    There are no funds to continue this work so this may be the only 
report of this kind. Everyone seems to want this information, but no 
one wants to invest in collecting and analyzing it. The NOEP website 
will remain on the Internet at www.OceanEconomics.org until the end of 
this calendar year, and there will be a special page for this national 
report, the appendices, and other supplementary materials we have 
prepared including a full set of coastal state summaries of their ocean 
and coastal economies. The website for these materials is found on the 
inside back cover of the report you have here today. Whether the NOEP 
continues, or not, the government should keep a set of ocean accounts 
for many reasons, especially in light of the changes that are underway 
from greenhouse gas impacts and the volatile economy. The oceans are 
too important to the U.S. economy to be overlooked.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Cantwell. Thank you, Dr. Kildow.
    We really do appreciate the report, and I know that you 
mentioned these statistics. But I think, in fact, that these 
economies of shore-adjacent counties will be the third-largest 
economy in the world after the European Union and the United 
States based on GDP is just quite an impressive number. So 
thank you for your work.
    Ms. Cousteau, thank you for being here with us today, and 
if you would go ahead and make your statement?
    Thank you.
    Ms. Cousteau. Thank you, Chair Cantwell.
    Senator Cantwell. You might have to pull that up close to 
you so we can----
    Ms. Cousteau. Is that better? No?
    Senator Cantwell. It will help if you get it a little 
closer. There we go.

 STATEMENT OF ALEXANDRA COUSTEAU, FOUNDER AND PRESIDENT, BLUE 
                      LEGACY INTERNATIONAL

    Ms. Cousteau. Before I deliver my formal comments this 
morning, I want to say a very sincere thank you to Chair 
Cantwell, Senator Snowe, Senator Martinez, to the Members of 
this Committee and their respective staff members for inviting 
me to be here with you today and share my thoughts on this 
critical issue.
    My grandfather spoke strongly of the importance of informed 
policy and always relished the opportunity to discuss these 
issues frankly with leaders of this body. It is an honor for me 
to continue that legacy here today because, for me, water and 
our oceans are more than a legacy. I have dedicated my life to 
exploring how these vital issues impact everyday people around 
the world, and I have created my organization, Blue Legacy, to 
do just that.
    I am convinced that in order to truly make a difference, it 
is time we stopped viewing ocean and water policy as 
freestanding issues and realize how interconnected all 
environmental and economic issues truly are. If this generation 
is to change things, we must bring ocean policy ashore.
    The ocean is the lifeblood of the Earth, covering more than 
70 percent of the planet's surface, driving weather, regulating 
temperature, and ultimately, supporting all living organisms. 
Throughout history, the ocean has been a vital source of 
sustenance, transport, commerce, growth, and inspiration.
    But the decline of the oceans due to pollution, 
overfishing, and climate change is now increasingly being felt 
in the quality of life of people everywhere. It is not just the 
coastal areas that are affected by these issues.
    Louisiana's wetlands, for example, are twice the size of 
the Everglades National Park, funnel more oil into the U.S. 
than the Alaskan pipeline, sustain one of the Nation's largest 
fisheries, and provide vital hurricane protection for New 
Orleans. And they are disappearing under the Gulf of Mexico at 
the astonishing rate of 33 football fields a day.
    While we were in Louisiana on a recent expedition, we spent 
time with the Cajun shrimp fishermen who have been fishing the 
Gulf of Mexico for five generations. The core component of the 
culture of coastal Louisiana is shrimping and fishing. It is 
not just the way people have historically made a living. It is 
life. It is what they do, and it is who they are.
    Scott St. Pierre, a shrimp fisherman in his mid-40s told 
me, ``We are not American. We are Cajun. We love food. We love 
our families. We love the church, and we love to fish.'' They 
are obviously proud of their unique culture and the fact that 
they contribute significantly to the 40 percent of U.S. seafood 
supplied from Louisiana's waters.
    But sadly, the Cajun way of life is gradually dying out, 
due to pressure from a number of factors that are all related 
to water. The land is rapidly sinking because Louisiana's 
wetlands have been nearly destroyed. Hurricanes, which are 
growing increasingly frequent and powerful due to climate 
change, threaten to wipe their town off the face of the Earth. 
And local young people are leaving for jobs in big cities, in 
part because the massive amount of agricultural runoff is 
creating a dead zone the size of New Jersey that is eradicating 
the Gulf of Mexico's shrimp supplies.
    This story is just a single microcosm. The same story is 
true of every one of our coastal communities with their myriad 
of traditions and economies that are at risk. And this 
underscores the reason why, as a Cousteau, I spend the majority 
of my time on land, talking with small communities, rather than 
on a boat or diving underwater. Because while the degradation 
of the oceans is happening out there, it is being felt right 
here in the homes of everyday people in this country and around 
the world.
    If we are to take ocean policy seriously, we need to take 
it onto the land. We must start to realize that there can be no 
stand-alone policies, especially as they relate to our water 
resources. Energy, transportation, climate change, 
infrastructure, agriculture, urban development--this is where 
our ocean policies must begin because everything is 
interconnected.
    Water is Earth's great storyteller. It is the mark of 
sustainability in a culture and is where we will feel the 
effects of climate change first. Unless we begin to work 
together to build a shared focus on this blue planet as a 
single hydrosphere, we will never build the kind of momentum it 
takes to leverage real and long-term change.
    Thank you.
    Senator Cantwell. Thank you, Ms. Cousteau.
    And thank you for your and your family's dedication to the 
oceans and the illuminating research that you have done. So we 
appreciate you continuing in that legacy.
    Dr. Fenical, welcome. Thank you very much for being here. 
We look forward to your testimony.

          STATEMENT OF WILLIAM FENICAL, DISTINGUISHED

 PROFESSOR OF OCEANOGRAPHY AND PHARMACEUTICAL SCIENCE, SCRIPPS 
                  INSTITUTION OF OCEANOGRAPHY,

                    UNIVERSITY OF CALIFORNIA

    Dr. Fenical. Thank you very much, Senator Cantwell, 
Senators Snowe and Martinez, and members of the Congressional 
staff.
    I am here to talk about what we haven't done with the 
ocean, what remains, and the amazing economic impact that 
exploration of the ocean can have on our economy.
    This needs to be preset in the context that the American 
economy has been and is growingly more dependent upon our 
ability to discover and to innovate than it is in our ability 
to produce. And in that context, I want to point out that 
nature has provided huge numbers of new products of commercial 
importance.
    Four thousand years ago, humankind began to explore nature 
and to utilize products from plants and animals all throughout 
the world, and this led, over the ensuing centuries, to the 
development of products. You can look at any product that you 
have in your medicine cabinet, in your food supplies, in your 
cosmetics, and see on the label that natural products are part 
of these products providing really an incalculable context of 
economic benefit to our society.
    But when you think about that development, that history, 
what we realize right away is that it has only been very 
recently that we have recognized the importance of the oceans. 
And a tremendous benefit remains for us to harvest from that 
source. As was said, the oceans are a huge component of our 
planet. They are, in particular, a very diverse environment in 
the American waters, from the Caribbean to the far South 
Pacific areas, and we have yet to utilize these products in 
commercial context.
    What is unique about the ocean is that when one considers 
genetic diversity, 44 of the 46 basic phyla, basic divisions of 
life, exist in the ocean, whereas, only 17 of these basic 
divisions occur on land. And so, to be accurate, we should have 
started to explore the ocean first. Why are we looking at our 
terrestrial life?
    Well, this is natural because we are terrestrial beings, 
and we are unfamiliar with the ocean. But we are becoming more 
familiar. And with technology, we are becoming able to develop 
studies of the oceans, including the deepest parts of the 
ocean.
    What we are talking about are natural compounds. Genetic 
diversity equates because of coding for the production of 
natural compounds, and it is these same natural compounds that 
have been used to generate great economic value.
    These compounds consist of cosmetic products, as I said, 
but go way beyond that to include coloring agents, food 
products, and so on. And very few of these products have, at 
this point, been explored in the ocean.
    One of the most important areas, and an area that I 
specialize in, is the development of pharmaceutical products. 
And this is an area of economic benefit to the United States in 
excess of $290 billion per year. Forty of the top 
pharmaceutical products provide income in excess of $1 billion 
per year.
    And so, these are enormous economic benefits. But, of 
course, not just the economic benefit, but the benefit to 
society is important. In 1900, the average life span was 47 
years. Now, in 2009, the average life span is 76 years. And 
this is a result of medical research, education in health, but 
in a major way, the discovery and development of new 
pharmaceutical products that treat cancer, infectious diseases, 
diabetes, and the like.
    Why haven't we looked at the oceans? The oceans are a great 
resource, but it has been the last resource because we are 
conservative on developing such a vast area of resources. The 
oceans have been explored recently and are beginning to be 
explored, and this has resulted in the development of two 
marine-derived drugs--one for intense pain and the other for 
cancer treatment of soft-tissue sarcoma.
    But this is just the beginning of an enormous iceberg of 
development and discovery that could happen in the future. 
Twenty-six drugs derived from marine life are being developed. 
Currently, they are in human clinical trials. And as time 
passes, of course, we intend to increase that number 
significantly.
    What are our challenges? Of course, the challenge is global 
warming, seawater temperature increase, and this is providing 
extinctions, mass migrations of plants and animals to new 
environments, and the like.
    Last, I think that the oceans and human health legislation 
that we are looking at now is an opportunity to change the 
situation in a very positive way to bring a focus on the health 
benefits of the ocean and develop new products and resources.
    Thank you very much.
    [The prepared statement of Dr. Fenical follows:]

   Prepared Statement of William Fenical, Distinguished Professor of 
    Oceanography and Pharmaceutical Science, Scripps Institution of 
                 Oceanography, University of California
Introduction
    Scientific and technological discovery and development, more than 
ever before, is perhaps the most important foundation of the economy of 
the United States of America. As we enter the decades to come, it is 
crucial that the U.S. lead in marine biological research providing for 
the creation of new industries based upon discoveries made from the 
ocean.
The Oceans as Our Great Resource
    The world's oceans occupy more than 70 percent of the surface of 
the Earth and 90 percent of the volume of its crust. While this is the 
largest ecosystem of plant Earth, we have only now realized that it is 
the most important of our biological resources.
    Biological diversity is best viewed at the phylum level, with 
humankind occupying the phylum Chordata. There are 46 phyla of 
biodiverse life on this planet, but these are unequally distributed 
between terrestrial and marine environments. On land, it is generally 
agreed that 17 phyla are represented. In the ocean 44 phyla are 
present, comprising our most diverse and complex biological community.
Why has it taken so long to accept this reality?
    As terrestrial beings, humans have classically been unable to 
comprehend the scope of marine environments and the diverse biota that 
abound from the ocean surface to depths of greater than 13,000 meters. 
Humans are not adapted to life in the sea, hence they are less familiar 
with the oceans and even frightened to explore it.
Genetic Diversity = Chemical Diversity
    Since genes are the molecular codes for new chemical compounds, it 
is clear that genetic diversity leads to chemical diversity. Thus, it 
is easily predicted that the oceans are our most prolific source for 
new chemical compounds. Sometimes called ``natural products'', 
naturally-produced chemical compounds are the foundation of a large 
diversity of industries and products, including pharmaceuticals (50 
percent of all drug are from Nature), cosmetic products (most contain 
natural chemicals), food flavorings and colorings, food additives 
(thickeners, vitamins, preservatives), biomaterials (polymers and 
biomaterials), and a host of others. If one examines the labels of 
virtually every consumer product we use, natural chemical compounds can 
be readily seen.
Values of Natural Products--Pharmaceuticals Top The List
    It is difficult to estimate the overall economic importance of 
natural chemical compounds, but clearly it is immense. Some of the most 
significant areas include the discovery and development of new 
pharmaceuticals and personal care products. As the U.S. population 
ages, they rely more than ever before on medications that can suppress 
or cure human diseases. Since the invention of the automobile, human 
life pan has increased from 47 years to over 75 years; much of this 
life extension is due to effective medical care which emphasizes drug 
treatments for cancer, heart disease, diabetes, and many other human 
maladies. In 2007, the U.S. pharmaceutical industry documented sales in 
excess of $286 B USD.\1\ Much of this came from sales of ``blockbuster 
drugs'' such as the cholesterol-lowering drug Lipitor, which generated 
$7 B USD in 2007. Overall, there are more than 40 currently prescribed 
drugs that report sales in excess of $1B USD per year.\2\
---------------------------------------------------------------------------
    \1\ http://www.usatoday.com/money/industries/health/2008-03-12-
drug-sales_N.htm.
    \2\ http://www.drugs.com/top200.html.
---------------------------------------------------------------------------
The Impact of Pharmaceuticals on Human Life
    While the economics of pharmaceutical sales is huge, the positive 
benefits on human health must be underscored. More than ever, difficult 
diseases are treated with the latest pharmaceutical discoveries. 
Diseases once considered fatal, are not treatable and often curable. 
There is no question that the discovery and development of new drugs is 
one of our most important societal goals.
Pharmaceutical Discovery in the Oceans
    Considering that 50 percent of the current drugs are either of 
natural origin or fashioned from natural drugs, it is imperative that 
we carefully consider the sources we have that are undeveloped. The 
treatment of cancer and infectious diseases, in particular, rely on 
naturally-occurring chemical compounds (Taxol, Penicillin are prominent 
examples) for their effective control. Because of the difficulty in 
treating complex cancers, and the growing epidemic of drug-resistant 
infectious diseases (MRSA for example), these diseases provide the 
greatest societal need for new and more effective therapeutics.
Where will the new drugs in the next decades be derived?
    Drug discovery is a very complex process involving many effective 
approaches including bioassay-guided synthesis and computer-assisted 
design. In the areas of cancer and infectious diseases, it is generally 
agreed that natural drugs provide perhaps the best opportunities.
    Because of the enormous biodiversity, marine environments provide 
the most prolific sources for new, natural drugs. This has been 
recognized by academic scientists and pharmaceutical researchers, 
leading to two current drugs (for cancer and pain control) on the 
market, and more than 25 additional marine-derived drugs currently 
being evaluated in human clinical trials.\3\
---------------------------------------------------------------------------
    \3\ D. Newman and G. Cragg, Chap. 12 in Bioactive Natural Products, 
Detection, Isolation and Structure Determination, Steven M. Colegate, 
Russell J. Molyneux, eds., CRC Press, 2007.
---------------------------------------------------------------------------
    Despite the enormous benefits, the U.S. pharmaceutical industry has 
been slow to embrace marine drug discovery. This has not been the case 
with the smaller biopharmaceutical industries (``Biotech''), which are 
less risk averse and can create and utilize new technologies in more 
dynamic ways. The linkages between academic scientists familiar with 
the ocean and its biodiversity, and biotech industries capable of 
development and sales, is a crucial one allowing the oceans to be 
explored. It is this aspect of science policy that should be 
underscored as the resources of the ocean are developed.
Secondary Benefits of Marine Drug Discovery
    It is important to understand that the process of natural drug 
discovery has enormous additional benefits to medical research. Often, 
new drug candidates are discovered that, for numerous reasons, are 
recognized to be unsuitable for treating human disease. At the same 
time, these agents possess unique pharmacological properties and affect 
human biochemical pathways that were previously unknown or poorly 
understood. Known as ``molecular probes'', these compounds have 
enormous utility in medical research. One such probe, known as aqueorin 
or Green Fluorescent Protein (GFP), is a protein isolated from the 
jellyfish Aqueoria victoria. GFP, which can be linked to drugs and 
other proteins, has revolutionized the study of human cell biology. 
This led to the award of the 2008 Nobel Prize to Chalfie, Shimomura and 
Tsien, for their discovery and development.\4\
---------------------------------------------------------------------------
    \4\ http://www.conncoll.edu/cca.cad/zimmer/GFP-ww/GFP-1.htm.
---------------------------------------------------------------------------
How Will Climate Change Impact Natural Drug Discovery?
    The biodiversity we currently enjoy is not guaranteed as we 
recognize the impact of global climate change. Populations of marine 
organisms are already beginning to decline or to migrate to new 
environments. While we can measure the impact on macroscopic marine 
life, and have done so in many areas, the impact on microbial 
communities, because of their more limited temperature adaptation, is 
likely to be greater.
Why do we care?
    Microorganisms are historically the most prolific sources for new 
drugs. The discovery of penicillin in 1929 heralded the great 
``antibiotic era'', which produced virtually all of the antibiotics we 
use today. Microbial antibiotics are produced by cultivation of 
bacteria and fungi in large-scale fermentors. The oceans are a major, 
untapped resource for bacteria and other microorganisms. Seawater is 
composed of 28 million microscopic cells per ounce. The bottom 
sediments, which mimic the soil, contain more than 1 billion cells in 
the volume of an ordinary cube of sugar. This is an amazingly unique 
community that is distinct from its terrestrial counterparts. 
Currently, at least 2 anti-cancer drugs, produced by marine microbes, 
are in clinical trials for the treatment of various forms of cancer.\5\ 
When one considers the medical emergency we face with drug-resistant 
infectious diseases, and the fact that microorganisms are the best 
source for new antibiotics, it is clear that marine bacteria and fungi 
represent the next great source for the discovery of new antibiotics to 
control human infectious diseases.
---------------------------------------------------------------------------
    \5\ http://www.nereuspharm.com/.
---------------------------------------------------------------------------
    Recognizing the important role marine microorganism will play in 
the future, it is disconcerting to consider the impact of global 
climate change on their survival and distribution. As the temperature 
of seawater increases, temperature adapted microorganisms typically 
illustrate stress responses. Thus, in several ways, the diversity of 
the ocean and our ability to use this amazing resource are linked to 
our future success in controlling global change.

    Senator Cantwell. Thank you, Dr. Fenical.
    And we look forward to asking you some questions more about 
that and potential products for the future.
    Mr. Warren, welcome. Thank you for being here.
    Obviously, part of today's discussion is the impacts that 
climate change have on our oceans and on our environment. We 
should note that this week, everybody has been complaining 
about Seattle weather being in Washington, D.C. And I note that 
we have been having wonderful 85-degree weather in Seattle, 
sunny.
    So, anyway, welcome to Washington, D.C.

                   STATEMENT OF BRAD WARREN, 
               SUSTAINABLE FISHERIES PARTNERSHIP

    Mr. Warren. Thank you, and thank you for having this 
hearing. I am really pleased that people here in D.C. are 
paying attention to the ocean. We need that.
    My name is Brad Warren. I run a program at the Sustainable 
Fisheries Partnership dealing with ocean health. I got started 
doing this because after 20, 25 years working in essentially 
trade publishing in the fishing industry, I saw things coming 
in climate change that we really had to deal with.
    Can you hear me? OK.
    An industry like this that totally depends on ocean health 
is going to have a lot to say about this, and I thought we have 
got to get these guys up to speed, and we have got to get their 
influence at the table where they can help contribute to 
solutions. So that is what I am doing.
    I am going to tell you a nutshell story that relates to 
what Dr. Fenical is doing. I have a very dear friend that I 
have spent a lot of time with in the hospital in the last 2, 3 
months. He is fighting a form of soft-tissue sarcoma for which 
one of the treatments that people have a lot of hope for is a 
compound derived from sea urchins.
    Sea urchins are among the species most vulnerable, most 
likely to dissolve because of ocean acidification. We have an 
enormous resource here in terms of its medical value, and we 
may well be throwing it away. Having said that, I will go into 
the rest of my testimony.
    What we are dealing with in terms of the dangerous rise in 
world emissions of carbon dioxide is something that has the 
potential to undercut every aspiration that we have for 
fisheries and ocean ecosystems. This isn't just one more 
problem for the ocean. It is the one that sets the terms for 
all the others.
    There are lots of efforts underway to conserve fisheries 
and protect marine habitats, but there is a good chance that 
none of them will amount to much if we don't get this one 
right, if we don't get a grip on our rising emissions of 
carbon.
    I want to thank this committee again for recognizing that 
the ocean belongs in this discussion, that the kind of 
integration of issues that Ms. Cousteau was talking about is 
exactly what we need. To be clear, SFP, for which I work, is 
not a lobby group. We instead help leaders in the seafood 
industry to understand the issues well enough to be part of the 
solution to the problems they really care about. They do the 
advocacy work. We are more of a technical adviser.
    What is at stake in getting a grip on carbon for the ocean 
is pretty big. Not even getting into the economic value of the 
pharmaceuticals that are likely to come out of this ocean, we 
are still at the infant stages of that, just the fish products. 
In the U.S. alone, seafood generated $68.4 billion in retail 
sales in 2007, according to NMFS. When you add wholesale and 
processing value to that, you see 67,000 jobs there. Add food 
service, and the numbers soar. There were, in 1999, the latest 
study I have seen from New York on this, 70,000 full-time jobs 
supported by sales of seafood in restaurants.
    Worldwide, marine fisheries provide the primary source of 
income and food for hundreds of millions of people. FAO and 
other international resource agencies estimated this year that 
3 billion people rely on the ocean for essential nutrition. 
About 400 million people in poor countries get half or more of 
their annual protein and minerals from seafood. About half a 
billion people worldwide in developing countries earn a living 
from fisheries and aquaculture.
    How much of this will be lost if we don't reduce emissions? 
We don't know. There aren't good answers for that, but we do 
know that it doesn't look good. And if we make a mistake here, 
the losses will be permanent.
    At a minimum, we expect ocean acidification and hypoxia 
alone will reduce productivity of fish stocks that generate 
food and livelihood for many millions of people. In the worst 
case, we could see the extinguishment of many fisheries. Large 
parts of the world's surface ocean, the top few hundred meters 
where virtually all of our seafood comes from, are already 
becoming corrosive to many of the plankton species that form 
the foundation of marine food webs. If the fish lose their 
dinner table, we will lose ours.
    The consequences of warming also take a toll. I will cut to 
the chase here and mention that there is some hypoxia occurring 
in the North Pacific that is particularly severe. We are 
looking at very deep loss of habitat for groundfish, some of 
the most valuable and productive fisheries we have.
    Adaptation has limits. When it comes to chemical change in 
the ocean, unlike thermal change, it is not clear that you 
can--well, once the ocean becomes corrosive for calcifying 
species, they dissolve. An ocean that is unfit for fish and the 
things they eat is not an ocean that fisheries can adapt to.
    There are some things we can do in terms of adaptive 
management. We can do some good research. We should do more. We 
have a profound need to dig in deeper in terms of how 
productivity in the ocean is changing so that we have a chance 
of managing fisheries sustainably as the ocean changes.
    If we invest in understanding these changes, we have a 
chance of adapting in a responsible way. So I would say there 
are a couple of take-home points here. We need a strong carbon 
policy. One can argue about where the thresholds should be. We 
are going to get a pretty good glimpse of that in a paper that 
is pending in press now by Feely and Turley that says here are 
the biological and chemical bases for setting thresholds for 
CO<INF>2</INF> based on ocean health. We think that is going to 
be a good place to look for figuring out how to set those 
thresholds.
    We urge you--and we are urging the industry to do the same, 
to urge you--to do everything you can to do the kind of thing 
you are already talking about. You are talking about doubling 
the budget for NOAA. We salute that. We are going to need a lot 
of that research, or we are not going to know enough to handle 
this problem.
    And then remember the nature of the risk. Overfishing and 
things like that are classic old-school risks that we manage in 
a way that bears in mind that you can usually get it back. You 
blow it--well, you just fish less. The fish generally come 
back. It is a marvelous kind of risk to face. This is not that 
kind of risk.
    This is one where, as far as we human beings are concerned, 
the geologic record suggests it is basically forever. We lose 
it. It is gone.
    Thank you.
    [The prepared statement of Mr. Warren follows:]

  Prepared Statement of Brad Warren, Sustainable Fisheries Partnership
    Thank you for the opportunity to testify today. It's especially 
gratifying to be here today because the theme of this hearing, the Blue 
Economy, shows that many of our elected leaders today--including 
leaders from both parties--``get it'' about the ocean. We are all here 
today because you understand that the ocean, which has been so generous 
to human beings for so long, now needs our help.
    My name is Brad Warren, and I run a program on ocean acidification 
and global ocean health at the Sustainable Fisheries Partnership (known 
as SFP). SFP is a nonprofit group that works with the seafood industry 
to conserve fisheries and marine ecosystems around the world.
    I came to this work after more than two decades in the fishing 
industry, where I mainly ran industry trade journals. I left the 
publishing business to focus on preparing the industry to confront 
CO<INF>2</INF>-driven ocean acidification and climate impacts. I made 
this change because it was the most important work I could think of to 
do. The dangerous rise in world emissions of carbon dioxide has the 
potential to undercut every aspiration we have for fisheries and ocean 
ecosystems.
    This isn't just one more problem for the ocean. It's the one that 
sets the terms for all the others. There are lots of efforts underway 
to conserve fisheries and protect marine habitats. But there is a very 
good chance that none of them will amount to much if we don't get a 
grip on the world's carbon dioxide emissions. It will be hard to save 
the fish if the ocean stops making them.
    I want to thank this committee for recognizing that the ocean 
belongs in this discussion. If we want the ocean to keep producing the 
benefits we enjoy--things like fish, whales, seafood jobs for millions 
of people, and (thanks to photosynthesizing plankton) about half of the 
oxygen we breathe--then we're going to need carbon policies that 
preserve its capacity to deliver the goods.
    To be clear, SFP is not a lobby group. Instead, we help leaders in 
the seafood industry to take on fundamental challenges to their future 
ability to produce and market fish products. Ultimately it will be up 
to them to speak for themselves on this issue. But I can tell you that 
they're listening, they're seriously concerned, and they are sorting 
out how they can be part of the solution. Some of the companies and 
fishing groups we work with are keen to learn more about carbon policy, 
where it's going, how it might affect them, and how it might help 
protect the ocean they depend on.
    What's at stake? Well, In the U.S., seafood generated $68.4 billion 
in retail sales in 2007, according to the National Marine Fisheries 
Service. Processing and wholesaling alone accounted for 67,000 jobs. 
Add foodservice to that, and the numbers soar. Seafood sales in New 
York State restaurants were estimated to support the equivalent of 
70,000 full-time jobs in 1999, according to New York Sea Grant.
    Worldwide, marine fisheries provide the primary source of income 
and food for hundreds of millions of people. FAO and other 
international resource agencies estimated this year that 3 billion 
people rely on the ocean for essential nutrition. About 400 million 
people in poor countries get half or more of their animal protein and 
minerals from seafood. Another 500 million people in developing 
counties earn a living from fisheries and aquaculture.
    How much of this will be lost if we don't reduce emissions? There 
are no good answers yet. But we do know this: If we delay acting until 
we know exactly what is at risk, we will make more of those losses 
unavoidable. Future generations will remember us for this. Whether they 
will forgive us is another question.
    We at SFP, and some of our colleagues in other organizations, have 
done a lot of work to make sure leaders of the U.S. fishing industry 
understand what the science is telling us about ocean acidification.
    The chemistry is pretty clear. The changes have been measured, not 
just modeled. We know that billions of tons of CO<INF>2</INF> from 
smokestacks and tailpipes are mixing into the ocean every year. The 
resulting carbonic acid depletes the rich soup of calcium carbonate in 
seawater. Many of the fish we eat depend on food species that literally 
build themselves out of that soup. One example: Pteropods, an important 
food source for salmon and many other fish, have been shown to dissolve 
quickly in calcium carbonate-depleted conditions resulting from 
elevated CO<INF>2</INF> concentration. Those conditions already occur 
in some near-surface waters along the West Coast and Alaska.
    If you want to see the key scientific papers that document 
acidification impacts, I would be happy to provide them.
    At a minimum, we expect ocean acidification and hypoxia alone will 
reduce productivity of fish stocks that generate food and livelihood 
for many millions of people. In the worst case, acidification could 
extinguish many fisheries. Large parts of the world's surface ocean--
the top few hundred meters, where virtually all our seafood comes 
from--are already becoming corrosive to many of the plankton species 
that form the foundation of marine food webs. This is what fish eat. If 
fish lose their dinner table, we'll lose ours.
    The consequences of thermal change--global warming--are mixed for 
fisheries: Small amounts of warming can and do increase the 
productivity of fish stocks, at least temporarily. One could make a 
case that some of our major fisheries have benefited from warming in 
the last few decades. As temperatures rise further, though, that 
benefit will vanish. Like Goldilocks, fish want temperatures that are 
``just right.''
    The consequences of warming also take a toll on the oxygen content 
of seawater, especially in deeper waters. Several studies suggest that 
we're rapidly losing deep habitat for many marine fish because warming 
has triggered processes that deplete the oxygen they need to survive. 
Some of the most compelling work on this problem comes from Canada's 
Department of Fisheries and Oceans.
    Some fisheries, such as Washington State's oyster industry, may 
already be suffering grave harm from ocean acidification. Oyster 
growers have suffered 4 years of reproductive failure. There is 
preliminary evidence that this may be due to ocean acidification, or 
possibly to a disease that thrives in acidified, oxygen-depleted 
seawater. Larval forms of many marine species are especially 
vulnerable, and lab experiments show very high mortality; in a 
preliminary study by NOAA scientists, 67 percent of larval blue king 
crab died when exposed to levels of acidification similar to those 
already measured in some waters--including parts of the West Coast 
during summer upwelling.
    Based on peer-reviewed NOAA research findings, it appears that the 
West Coast and the North Pacific off Alaska are especially vulnerable 
in the near term, because CO<INF>2</INF> tends to collect there. In the 
near-surface waters where most fish and shellfish live, CO<INF>2</INF> 
concentrations are unusually high in the North Pacific region. Alaska 
produces about two-thirds of the U.S. fish harvest. So a lot of food is 
at stake.
    If we lose marine fisheries, some people hope that aquaculture will 
take up the slack. I wouldn't count on that. The popular farmed seafood 
products we consume in America--shrimp, salmon, tuna, etc.--are raised 
on feeds that include millions of tons of wild caught marine fish. 
Indeed, aquaculture consumes 57 percent of the world's annual 
production of fishmeal and 90 percent of all fish oil, according to a 
recent report by my colleagues at SFP.
    Although we work closely with them, we don't represent the 
fisheries industry. There isn't yet agreement on every point or every 
step toward solutions. But I can say that many leaders of the industry 
are seriously concerned about acidification. We think they should be.
    It's fair to say that seafood producers have two interests at stake 
in controlling CO<INF>2</INF> emissions.
    First, they depend on the ocean to make fish. Some fishers and 
fishing communities are pressing for strong carbon policy in order to 
protect ocean productivity. We encourage that. They also want to know 
how CO<INF>2</INF> emissions are affecting fish and shellfish. Fishing 
and processing groups have advocated successfully for two important 
government research programs, one national, one regional, that will 
help to clarify how CO<INF>2</INF>-driven acidification affects marine 
ecosystems and commercially harvested species
    The second point of concern is the same one every other industry 
faces: fishing takes fuel. Fishers and processors want to protect the 
resource, and they also want to stay in business. They want emission 
reductions targets that are achievable. They also want emissions 
regulations to be fair and affordable.
    Their experience is unusually relevant as the Nation prepares to 
adopt a cap and trade system for carbon. Probably more than any other 
industry, fishers understand the use of transferable ``rights'' or 
``allowances'' to address environmental problems. The lessons learned 
apply directly to carbon regulation. Dozens of transferable fishery 
quota systems have evolved over the last for 25 years around the world. 
Fishers and seafood processors have learned how these systems can solve 
difficult problems such as reducing bycatch; they have also learned how 
these cap-and-trade systems create competitive advantages and 
disadvantages. If a new regulatory system for carbon dioxide is going 
to create tools and incentives that help companies reduce emissions, 
improve energy efficiency, and reduce fuel costs, people in the fish 
business will want access to those benefits.
    The fishing industry is a tiny emitter. Based on data from the U.N. 
Food and Agriculture Organization and U.S. Department of Energy, we've 
estimated that fishing fleets worldwide account for about 0.2 percent 
of global CO<INF>2</INF> emissions. Probably no U.S. seafood company 
(and certainly no single facility) emits 10,000-ton CO<INF>2</INF>e, 
the threshold for regulation envisioned by many carbon policy 
proposals. But again, if a new system creates special benefits, they 
will want the benefits to be allocated in a fair and inclusive way--not 
reserved for a few big emitters, while everybody else just pays more at 
the pump.
    There can be legitimate disagreements about how, and how much, to 
reduce emissions. But there is one goal everyone should hold in common: 
We want controls that allow the ocean to keep giving us fish to eat .
    An excellent documentary film on ocean acidification has just come 
out. It's called A Sea Change (information online at 
www.aseachange.net). I recommend this film to everyone here.
    Thank you again for holding this hearing. Good luck!

    Senator Cantwell. Thank you, Mr. Warren.
    Mr. Babb-Brott, thank you for being here and for your work 
in Massachusetts. We look forward to hearing about your efforts 
in planning.

                STATEMENT OF DEERIN BABB-BROTT,

           ASSISTANT SECRETARY OF OCEANS AND COASTAL

            ZONE MANAGEMENT, MASSACHUSETTS EXECUTIVE

          OFFICE OF ENERGY AND ENVIRONMENTAL AFFAIRS,

                 COMMONWEALTH OF MASSACHUSETTS

    Mr. Babb-Brott. Thank you, and good morning, Madam Chair 
and Senator Snowe.
    Thank you for the opportunity to share with you our 
firsthand experiences in the initial applications of marine 
spatial planning and ecosystem-based management through the 
development of the Commonwealth's first comprehensive ocean 
management plan.
    In my testimony this morning, I will describe the concept 
of marine spatial planning and ecosystem-based management and 
explain our current efforts in Massachusetts to improve our 
stewardship and the management of the ocean environment in and 
beyond Massachusetts ocean waters.
    Nationally and internationally, variations on the 
discipline of marine spatial planning are emerging as a basis 
for stewardship of the ocean ecosystem. While there are many 
technical definitions, marine spatial planning can be simply 
described as the adaptive process of collecting, analyzing, and 
managing the spatial distribution of marine resources and 
habitats and human activities to achieve the goals defined by 
society.
    Not unlike what we regularly do on land in terms of land 
use planning to site development while protecting such features 
as open space habitat and drinking water supplies, marine 
spatial planning seeks to do the same in the ocean environment. 
Marine spatial planning thus supports decisions related to the 
allocation of ocean services.
    A related discipline, ecosystem-based management, provides 
the tools for understanding, maintaining, and enhancing the 
ecosystem's ability to provide those services humans need and 
desire. In brief, ecosystem-based management focuses on the 
system; acknowledges interconnectedness within and among 
systems, such as between air, land, and sea; and integrates 
ecological, social, economic, and institutional perspectives, 
recognizing their strong interdependencies.
    In 2003, the Massachusetts Ocean Management Task Force was 
appointed to examine evolving ocean issues and develop a 
comprehensive approach to managing ocean resources. In March 
2004, the Task Force presented as its top priority the 
enactment of legislation establishing comprehensive ocean 
resource management in Massachusetts ocean waters.
    This recommendation led to the passage of the Oceans Act of 
2008, signed by Governor Patrick last May. The Oceans Act has 
15 core requirements whose elements include requirements to 
identify and protect special, sensitive, or unique marine life 
and habitat; value biodiversity and respect the interdependence 
of ecosystems; identify appropriate locations for development; 
foster sustainable uses that capitalize on economic 
opportunity; respect the importance of commercial and 
recreational fishing; and address climate change and sea level 
rise.
    Two key features of the Act include the fact that the ocean 
plan is not a regulatory, but all approvals by any political 
subdivision of the State must be consistent with the plan. And 
fisheries management plans and fisheries regulations are not 
subject to the ocean plan. Commercial and recreational fishing 
are allowed uses, subject to the exclusive jurisdiction of the 
State fisheries agency.
    The Oceans Act requires a draft for public review 12 months 
from its enactment, and the final plan must be promulgated 6 
months thereafter. To develop the plan, EEA invested in 6 
months of listening to and learning from the public and 
stakeholders, gathering and synthesizing existing data, and 
identifying key data gaps that could be addressed within the 
schedule; 3 months developing and reviewing management options 
and incorporating new data; and 2 months refining and revising 
the ocean plan.
    As the basis for the plan, we adopted four goals--
integrated management, so that individual actions will be 
considered in the context of a plan that integrates natural, 
social, and economic information; effective stewardship through 
management of human uses; the effective stewardship through the 
protection of resources; and the development of an adaptive 
planning framework. Specific planning strategies were developed 
to address the 15 requirements of the Oceans Act, such as to 
meet the condition of the Oceans Act that the ocean plan 
reflect the importance of commercial fishing, we established as 
a strategy that we would locate incompatible uses outside areas 
of high commercial fishing effort and value.
    Overall management options were then developed and reviewed 
with the Ocean Advisory Commission. Options ranged from using 
the new data and information to support existing management and 
regulatory processes to fully zone the ocean for allowable and 
prohibited uses. We are now working with a hybrid approach that 
designates some specific areas that allow or prohibit uses, but 
that also leaves the majority of the planning area unallocated 
where new uses will be subject to siting and performance 
standards that direct development away from high-value resource 
areas and concentrations of existing water-dependent uses.
    In our work to date, we have learned that marine spatial 
planning is extremely time and labor intensive. Sufficient 
staff and agency resources are required to address data, public 
participation, and planning needs. A minimum requirement is 
sufficient data to accurately characterize baseline 
environmental and human conditions, but importantly, this 
baseline data can be derived from multiple sources of varying 
temporal and spatial scale and resolution. Acquiring, 
analyzing, presenting, and based on feedback, revising 
information in an iterative process with the public is 
critical.
    And last, the need for the coordinated and supportive 
participation of the Federal agencies cannot be overstated. To 
successfully support local and regional marine spatial planning 
initiatives, we strongly believe that the National Oceanic and 
Atmospheric Administration should have a centralized 
coordinating Federal role in working with the States and 
regions to advance Federal, regional, and State marine spatial 
planning policy initiatives.
    Thank you for the opportunity to testify this morning.
    [The prepared statement of Mr. Babb-Brott follows:]

Prepared Statement of Deerin Babb-Brott, Assistant Secretary of Oceans 
 and Coastal Zone Management, Massachusetts Executive Office of Energy 
        and Environmental Affairs, Commonwealth of Massachusetts
Introduction
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Deerin Babb-Brott, and I am Assistant Secretary of Oceans and Coastal 
Zone Management of the Executive Office of Energy and Environmental 
Affairs for the Commonwealth of Massachusetts. I am pleased to be here 
today to share with you our first-hand experiences in the initial 
applications of marine spatial planning and ecosystem-based management 
through the development the Commonwealth's first comprehensive ocean 
management plan. In my testimony today, I will describe the concept of 
marine spatial planning and explain our current efforts in 
Massachusetts to use spatially-explicit information on ecosystem 
components and human uses, activities, and facilities to improve our 
stewardship and management of the ocean environment in and beyond 
Massachusetts marine waters.
The Context for Marine Spatial Planning
    Our Nation's oceans provide the foundation for uses, goods, and 
services that collectively represent a significant component of the 
United States economy. The oceans support an impressive list of 
renewable and non-renewable goods and services including: commercial 
and recreational fishing; marine transportation and navigation; energy, 
communications, and waste/process-water infrastructure; sand and gravel 
extraction; recreational boating, diving, wildlife watching; science 
and education; and historical and cultural sites. ``Ecosystem 
services'' has emerged as a term capturing the array of uses, goods, 
and benefits that humans derive from natural systems. Estimates of the 
value of the services derived from marine ecosystems can be generated 
but they are generally very conservative as numerous services are very 
difficult to quantify.
    Human society benefits greatly from the uses, goods, and services 
provided by estuarine and marine ecosystems, but our activities--both 
in the ocean, along its coasts, and on adjacent land and watersheds--
are also having detrimental effects on these same systems, their 
components and processes. Rapid climate change, habitat loss and 
changes, pollution, and spread of invasive species are just some of the 
threats and stressors which are jeopardizing these ecosystems and the 
human services they provide.
    At the same time, the marine waters are increasingly eyed for new 
uses and development, including traditional energy facilities such as 
liquefied natural gas terminals and associated pipelines, offshore 
aquaculture, and the extraction of sand or gravel resources for beach 
and shoreline stabilization. Another significant use of the ocean going 
forward is the development of renewable energy facilities. While tide, 
current, and wave resources represent potential as renewable energy 
sources, wind energy in the Northeast is the resource with the greatest 
promise on the basis of currently available technology. Here, offshore 
wind is superior to remote onshore wind in terms of resource size, 
distribution, capacity factor, reliability, minimization of 
environmental impact, and proximity to population centers. It is a 
potentially inexhaustible resource that, in many cases, is available in 
close proximity to regions with the highest electricity demand, 
minimizing the need for costly new transmission lines.
    Concurrent with these new demands comes an increasing awareness of 
the tremendous importance of maintaining a healthy and resilient marine 
ecosystem to both support the uses and services that society values and 
benefits from and also to support its resilience to the increasing 
threats of global climate change. Time is long overdue to be more 
active stewards of these public resources and to take a more pro-active 
stance in planning for marine ecosystem protection and the responsible 
and sustainable uses that stem from it.
Marine Spatial Planning and Ecosystem-based Management
    Aspects of two formal methods for developing and organizing 
information and making management decisions about human uses in the 
marine environment are being used in the development of the 
Massachusetts Ocean Management Plan: marine spatial planning and 
ecosystem-based management. The United Nations Educational, Scientific, 
and Cultural Organization web page on marine spatial planning (http://
www.unesco-ioc-marinesp.be/) explains that:

        Marine spatial planning is a public process of analyzing and 
        allocating the spatial and temporal distribution of human 
        activities in marine areas to achieve ecological, economic, and 
        social objectives that usually have been specified through a 
        political process. Characteristics of marine spatial planning 
        include ecosystem-based, area-based, integrated, adaptive, 
        strategic and participatory.

        Marine spatial planning is not an end in itself, but a 
        practical way to create and establish a more rational use of 
        marine space and the interactions between its uses, to balance 
        demands for development with the need to protect the 
        environment, and to achieve social and economic objectives in 
        an open and planned way.

    More than 220 academic scientists and policy experts with relevant 
expertise signed the Scientific Consensus Statement on Marine 
Ecosystem-Based Management, which was published in 2005 by 
Communication Partnership for Science and the Sea and written by K. L. 
McLeod, J. Lubchenco, S. R. Palumbi, and A. A. Rosenberg. This 
statement defines ecosystem-based management as:

        . . . an integrated approach to management that considers the 
        entire ecosystem, including humans. The goal of ecosystem-based 
        management is to maintain an ecosystem in a healthy, productive 
        and resilient condition so that it can provide the services 
        humans want and need. Ecosystem-based management differs from 
        current approaches that usually focus on a single species, 
        sector, activity or concern; it considers the cumulative 
        impacts of different sectors.

    Specifically, ecosystem-based management:

  <bullet> emphasizes the protection of ecosystem structure, 
        functioning, and key processes;

  <bullet> is place-based in focusing on a specific ecosystem and the 
        range of activities affecting it;

  <bullet> explicitly accounts for the interconnectedness within 
        systems, recognizing the importance of interactions between 
        many target species or key services and other non-target 
        species;

  <bullet> acknowledges interconnectedness among systems, such as 
        between air, land and sea; and

  <bullet> integrates ecological, social, economic, and institutional 
        perspectives, recognizing their strong interdependencies.

    While these definitions exemplify the many interpretations of 
marine spatial planning, we have adopted one from the United Nations' 
Educational, Scientific, and Cultural Organization that has particular 
appeal for us by virtue of its intuitive simplicity.

        Marine spatial planning is the adaptive process of collecting, 
        analyzing and managing the spatial distribution marine 
        resources and habitats and human activities to achieve the 
        goals defined by society. Not unlike what we regularly do on 
        land in terms of zoning and land-use planning to site 
        development while protecting such features as open space, 
        habitat, and drinking water supplies, marine spatial planning 
        seeks to do the same in the ocean environment.
The Massachusetts Oceans Act
    In Massachusetts, rich ocean waters and a spectacular coastline 
have shaped our history, economy, and way of life. Today, these 
ecologically and economically vital public resources face unprecedented 
development pressure and represent potential solutions for new 
challenges, such as climate change. In addition to traditional ocean 
uses--recreation and tourism, fishing and shellfishing, and shipping 
and trade--new proposals for energy, aquaculture, off-shore sand 
mining, and other projects highlight the need for a comprehensive ocean 
management strategy.
    In 2003, the Massachusetts Ocean Management Task Force was 
appointed to examine evolving ocean uses and develop a comprehensive 
approach to managing ocean resources. In March 2004, the Task Force 
released its final recommendations in the Waves of Change report. These 
recommendations focused on: strengthening state agencies to address 
environmental, planning, and public trust issues in both state and 
Federal waters; establishing an ecosystem-based protocol to improve 
management of Federal waters; and initiating ocean education and 
stewardship initiatives. The Task Force's top recommendation was that 
legislation be enacted to require the development of comprehensive 
ocean resource management plans for Massachusetts ocean waters. This 
recommendation and the cooperative efforts that followed led to the 
passage of the Oceans Act of 2008.
    The Oceans Act of 2008 requires the Secretary of the Executive 
Office of Energy and Environmental Affairs (EEA) to develop an 
integrated ocean management plan. Specifically, the Oceans Act requires 
that the plan shall:

        1. Set forth the Commonwealth's goals, siting priorities, and 
        standards for ensuring effective stewardship of its ocean 
        waters held in trust for the benefit of the public.
        2. Adhere to sound management practices, taking into account 
        the existing natural, social, cultural, historic, and economic 
        characteristics of the planning areas.
        3. Preserve and protect the public trust.
        4. Reflect the importance of the waters of the Commonwealth to 
        its citizens who derive livelihoods and recreational benefits 
        from fishing.
        5. Value biodiversity and ecosystem health.
        6. Identify and protect special, sensitive, or unique estuarine 
        and marine life and habitats.
        7. Address climate change and sea-level rise.
        8. Respect the interdependence of ecosystems.
        9. Coordinate uses that include international, Federal, state, 
        and local jurisdictions.
        10. Foster sustainable uses that capitalize on economic 
        opportunity without significant detriment to the ecology or 
        natural beauty of the ocean.
        11. Preserve and enhance public access.
        12. Support the infrastructure necessary to sustain the economy 
        and quality of life for the citizens of the Commonwealth.
        13. Encourage public participation in decision-making.
        14. Adapt to evolving knowledge and understanding of the ocean 
        environment.
        15. Identify appropriate locations and performance standards 
        for activities, uses, and facilities allowed under the Oceans 
        Sanctuaries Act.

    The Oceans Act does not create a new layer of regulation, but 
rather provides that all state certificates, licenses, permits and 
approvals for any proposed structures, uses, or activities be 
consistent with the plan to the maximum extent practicable. 
Additionally, the ocean management plan must be incorporated into the 
Massachusetts Coastal Zone Management Plan. Therefore, in addressing 
the requirements of the Oceans Act, the ocean management plan must take 
an integrated approach across levels of government, both in its 
development as well as its implementation.
    The Act stipulates that the Division of Marine Fisheries (DMF) 
shall have sole responsibility for developing and implementing any 
fisheries management plans or fisheries regulations, and, further, that 
commercial and recreational fishing shall be allowable uses subject to 
the exclusive jurisdiction of DMF. Additionally, DMF is directed to 
assess the potential economic impacts of planning decisions to 
commercial and recreational fishing and make recommendations to 
minimize those impacts. To ensure that the ocean management plan and 
fisheries management are complementary, the Ocean Act requires that 
fisheries management shall be integrated, to the maximum extent 
practicable, with the plan.
    In addition, the Oceans Act makes a new allowance for the 
development of ``appropriate scale'' renewable energy development, 
including wind, wave and tidal energy, in state waters; establishes an 
Ocean Resources and Waterways Trust Fund to restore or enhance marine 
habitat and resources or compensate for navigational impacts that is to 
be funded by mitigation fees assessed to ocean development; establishes 
an Ocean Advisory Commission and Ocean Science Advisory Committee to 
assist the Secretary in developing the ocean management plan; and 
requires that the ocean plan be revised and reviewed by the public and 
the legislature at least every 5 years.
    Finally, the Oceans Act established an aggressive eighteen-month 
timeline for developing the ocean plan, challenging us to respond 
quickly. While the schedule is ambitious, we will meet it, with an 
ocean plan that both advances the marine spatial planning state-of-the-
art in Massachusetts and beyond, and sets out a framework for ongoing, 
adaptive planning and ocean management.
Marine Spatial Planning in Massachusetts
    Principles and practices of marine spatial planning and ecosystem-
based management, whether derived from academic expression, conceptual 
models, or specific application in other ocean management plans, 
provided one aspect of the basic foundation for the Massachusetts Ocean 
Management Plan. The plan considered marine spatial planning and 
ecosystem-based management principles through the prism of other 
elements of the planning context, including:

  <bullet> The Oceans Act as a source for siting priorities and 
        standards.

  <bullet> Existing state law, particularly the Massachusetts 
        Environmental Policy Act, for siting thresholds and standards.

  <bullet> Performance standards in Massachusetts agencies' resource 
        and regulatory programs.

    Importantly, as planning and management disciplines, marine spatial 
planning and ecosystem-based management have been advanced in 
alternative configurations that share the common elements of a 
formalized and iterative process that applies specified deliberative 
methodologies and information requirements. The structure and content 
of the ocean plan will be consistent with, and has been framed 
carefully to allow for, ongoing incorporation of new knowledge and 
refined methods relevant to marine spatial planning and ecosystem-based 
management.
    As the basis for developing the ocean plan, a planning team at the 
Executive Office of Energy and Environmental Affairs (EEA), supported 
by EEA's Office of Coastal Zone Management, conducted an ambitious 
public information and participation campaign that included the 
following:

  <bullet> Websites and Electronic Updates--To provide the public with 
        the necessary information to effectively participate in plan 
        development, EEA launched the Massachusetts Ocean Plan website. 
        In addition, EEA developed the Public Input Portal for 
        Massachusetts Ocean Planning to provide direct access to video/
        transcripts of public meetings, an online commenting form, and 
        a log of the public comments submitted. EEA also distributed 
        periodic Ocean Planning Alert e-mails, available both 
        electronically and in print.

  <bullet> Public Listening Sessions--In September and October of 2008, 
        EEA held 18 public Listening Sessions in Boston, Eastham, Fall 
        River, Gloucester, Lowell, Nantucket, New Bedford, Norwell, Oak 
        Bluffs, Pittsfield, Plymouth, Salem, Salisbury, Springfield, 
        West Barnstable, Weymouth, Woods Hole, and Worcester. More than 
        300 people turned out to give their input on the goals for the 
        ocean management plan. Videos and transcripts of these 
        Listening Sessions were posted on the Public Input Portal to 
        support further public participation, and summaries of the 
        comments provided at the meetings were posted to the EEA Ocean 
        Plan website.

  <bullet> Ocean Management Planning Principles Workshop--In November 
        2008, the OAC and SAC held a joint workshop to discuss various 
        aspects of the general practice of marine spatial planning. In 
        addition to OAC and SAC members, 30 individuals participated.

  <bullet> Data Workshops--In February 2009, twin workshops were held 
        by EEA in Sandwich and Boston to for the public to review draft 
        work group (see below for a description of the work groups) 
        maps and products. More than 40 people participated in the 
        Sandwich workshop and almost 60 participated in Boston.

  <bullet> Stakeholder Meetings--During the development of the draft 
        plan, EEA held more than 80 meetings with individual interest 
        groups, advocates, industry representatives, and others to 
        answer their questions and solicit their direct input. More 
        than 110 people were interviewed through these meeting and 
        summary reports of their comments were posted on the EEA Ocean 
        Plan website.

  <bullet> OAC Workshop on Preliminary Plan Components--In May 2009, 
        the OAC held twin workshops in Woods Hole and Boston to discuss 
        preliminary spatial analysis of existing ocean management data, 
        compatibility and impact analysis of ocean uses, and conceptual 
        management measures to be used in the Massachusetts Ocean 
        Management Plan. More than 130 stakeholder representatives 
        attended these workshops.

    To collect and analyze information needed for plan development, EEA 
worked with state agency staff and the Massachusetts Ocean Partnership. 
Reports stemming from these efforts and detailing their results are 
available electronically at www.mass.gov/czm/oceanplan/index.htm.

  <bullet> Technical Work Group Reports--Work groups made up of state 
        agency staff and members from Federal agencies, academia, the 
        renewable energy industry, and non-governmental organizations 
        were charged with assembling available natural resource and 
        human use data to be used in plan development. These work 
        groups were organized topically and covered: habitat; 
        fisheries; transportation, navigation, and infrastructure; 
        sediment; recreation and cultural services; and renewable 
        energy. Much of the data used in the ocean management plan 
        stemmed from these work group reports, and members of the 
        habitat and fisheries work groups formed the core staff that 
        worked on the Ecological Valuation Index (described more fully 
        in Chapter 3.

  <bullet> Qualitative Commercial Fishing Information--EEA staff met 
        with commercial fishermen in meetings coastwide to discuss the 
        development of the ocean management plan and concerns of 
        fishermen. At several of these meetings, fishermen used maps 
        and National Oceanic and Atmospheric Administration charts to 
        provide information regarding the locations of particular 
        fisheries in the planning area, type of gear used, and seasonal 
        restrictions.

  <bullet> Qualitative Recreational Fishing Information--The Division 
        of Marine Fisheries performed a coast-wide survey of 
        recreational fishing interests to identify areas of 
        concentrated recreational fishing activity. While this survey 
        was not designed to be statistically accurate, it provided 
        useful information for planning purposes.

  <bullet> Qualitative Recreational Use Information--The Massachusetts 
        Marine Trades Association developed a series of maps indicating 
        areas of concentrated recreational activity throughout the 
        planning area.

  <bullet> Automated Information System (AIS)--The Stellwagen Bank 
        National Marine Sanctuary provided AIS information for the 
        planning area and adjacent Federal waters. This data captures 
        the tracks of commercial vessels greater than 299 tons. This 
        information was digitized with the assistance of the 
        Massachusetts Ocean Partnership and used to identify areas of 
        the planning area used by commercial vessel traffic.

  <bullet> Vessel Monitoring System (VMS)--The Gloucester office of the 
        National Marine Fisheries Service provided VMS information for 
        the planning area and adjacent Federal waters, which indicates 
        the tracks of commercial fishing vessels that are fishing in 
        Federal waters. This information was digitized with the 
        assistance of the Massachusetts Ocean Partnership and used to 
        identify areas of the planning area traversed by commercial 
        fishing vessels fishing in Federal waters.

  <bullet> Assessment of Human Activities in the Planning Area--Through 
        funding provided by the Massachusetts Ocean Partnership, 
        scientists from the National Center for Ecological Analysis and 
        Synthesis at the University of California/Santa Barbara mapped 
        the footprint and preliminarily assessed the impact of certain 
        human activities in the planning area.

  <bullet> Science Tools to Implement Ecosystem-Based Management in 
        Massachusetts--Through funding provided by the Massachusetts 
        Ocean Partnership, the consulting firm MRAG Americas, Inc. 
        provided an overview and recommendations regarding the 
        application of ecosystem-based management principles to the 
        Massachusetts Ocean Management Plan. This report also provided 
        an overview of decision support tools and ecosystem models.

  <bullet> Planning Framework Review--The Massachusetts Ocean 
        Partnership funded a team of consultants to review ocean 
        management efforts outside of Massachusetts to identify 
        applicable aspects for the approach to the ocean management 
        plan. This team provided recommendations for the overall 
        framework for the ocean management plan.

  <bullet> Development of Mitigation Framework Options--Through funding 
        provided by the Massachusetts Ocean Partnership, the firm IEc 
        reviewed previous ocean development projects in Massachusetts 
        and interviewed involved parties. The purpose of this study was 
        to provide recommendations for developing a framework for how 
        to develop an approach to mitigation for ocean development in 
        the future.

    The basic purpose of the ocean management plan is to translate the 
policy direction and specific requirements of the Oceans Act into a 
management plan through a logical, sequential process of developing 
decision-making guidance for use in analyzing existing data.
    The plan was developed by a sequential process that entailed: (1) 
evaluating the Oceans Act and developing goals and strategies to 
identify key issues to be addressed based on values expressed therein; 
(2) assessing the compatibility and impacts of uses, activities, and 
facilities allowed under the Ocean Sanctuaries Act with marine 
resources and other uses; (3) applying the strategies as initial 
planning guidance to identify appropriate and inappropriate locations 
for specific uses, activities, and facilities; (4) correlating the 
planning guidance with spatial data and generating maps that illustrate 
impacts associated with uses marine resources; (5) evaluating options 
for managing uses; and (6) developing an ocean management plan that 
best accomplishes the management plan goals described above.
    The overall approach to developing the ocean management plan was 
therefore framed by the 15 core requirements and other substantive and 
procedural elements of the Oceans Act, including the independent status 
of commercial and recreational fishing, the requirement that the plan 
be revised no less frequently than every 5 years, and the consultative 
roles of the Ocean Advisory Commission and Science Advisory Council. 
Important additional considerations included:

  <bullet> Vested public interest in the development of the draft plan;

  <bullet> The amount of data and information either immediately 
        available or able to be acquired within the schedule for the 
        draft plan;

  <bullet> Principles and practices of marine spatial planning and 
        ecosystem-based management;

  <bullet> Existing law and policy; and

  <bullet> The degree of change in current management practices 
        necessary to address current challenges, justifiable by 
        available information, and reasonable as a first response to 
        the Ocean Act's comprehensive expression of the public trust 
        doctrine.

    To begin developing the ocean management plan and understanding the 
requirements of the Oceans Act, the 15 requirements of the Oceans Act 
were organized in generally common themes as illustrated below.

------------------------------------------------------------------------

------------------------------------------------------------------------
                        Governance and Management
------------------------------------------------------------------------
Set forth the Commonwealth's goals, siting priorities and standards for
 ensuring effective stewardship of its ocean waters held in trust for
 the benefit of the public
------------------------------------------------------------------------
Coordinate uses that include international, Federal, state, and local
 jurisdictions
------------------------------------------------------------------------
Adhere to sound management practices, taking into account the existing
 natural, social, cultural, historic, and economic characteristics of
 the planning areas
------------------------------------------------------------------------
Adapt to evolving knowledge and understanding of the ocean environment
------------------------------------------------------------------------
Facilitate public participation in decision-making
------------------------------------------------------------------------
Preserve and protect the public trust
------------------------------------------------------------------------
                           Natural Ecosystems
------------------------------------------------------------------------
Value biodiversity and ecosystem health
------------------------------------------------------------------------
Respect the interdependence of ecosystems
------------------------------------------------------------------------
Address climate change and sea-level rise
------------------------------------------------------------------------
Identify and protect special, sensitive, or unique estuarine and marine
 life and habitats
------------------------------------------------------------------------
                               Human Uses
------------------------------------------------------------------------
Identify appropriate locations and performance standards for activities,
 uses, and facilities allowed in Ocean Sanctuaries
------------------------------------------------------------------------
Foster sustainable uses that capitalize on economic opportunity without
 significant detriment to the ecology or natural beauty of the ocean
------------------------------------------------------------------------
Support the infrastructure necessary to sustain the economy and quality
 of life for the citizens of the Commonwealth
------------------------------------------------------------------------
Reflect the importance of the waters of the Commonwealth to its citizens
 who derive livelihoods and recreational benefits from fishing
------------------------------------------------------------------------
Preserve and enhance public access
------------------------------------------------------------------------

    This organization by general theme was further refined by 
addressing the questions: What central principles does the Oceans Act 
establish? What are the most specific, important things that the Act 
requires the plan to do? How can the plan best accomplish those things 
in the context of the other important considerations described above? 
To respond to these questions, the following subjects were reviewed: 
the Oceans Act requirements, the current state of knowledge of the 
marine environment and its uses, consideration of the preferred 
management approach (discussed above), and public and stakeholder 
comment including input from the Ocean Advisory Commission.
    This review led to the development of the following framework for 
the ocean management plan: specific goals describe what the ocean plan 
should achieve); findings summarize conditions, issues, and desired 
future conditions associated with the goals; strategies describe the 
information and process needed to achieve the goals; and outcomes 
define the final product that achieves the goals.
    The four goals established in the ocean management plan are: (1) 
integrated ocean management; (2) good stewardship--protection of the 
marine ecosystem; (3) good stewardship--human use of the marine 
ecosystem, and (4) an adaptive foundation for ocean management in the 
future. These goals reflect the highest priority, basic elements needed 
to be responsive to the Act and provide the basis for ongoing work. For 
each of the goals, there is an accompanying outcome for the ocean 
management plan to achieve.
    Findings provide summary characterizations of conditions, issues, 
and desired future conditions associated with each of the goals and 
also provide a general rationale for the selection of particular 
strategies. Findings are based on the understanding of the ocean 
ecosystem, human uses and natural resources in the marine environment, 
stakeholder comment, and the Ocean Act requirements and other existing 
laws, policies, and regulations regarding ocean resources and uses.
    These goals and their associated strategies and findings provide 
the foundation for the Massachusetts Ocean Management Plan. The next 
step in developing the plan was to apply the decision-making guidance 
supplied by the goals and strategies. This step occurred through the 
development of compatibility assessment and application of this 
assessment using existing data, as discussed in the next section.
    Uses, activities, and facilities allowed by the Ocean Sanctuaries 
Act, as described below, were analyzed to determine the degree to which 
they are incompatible with marine resources and other uses, activities, 
and facilities based on: (1) functional incompatibility (e.g., two uses 
that cannot physically occupy the same location); (2) the significance 
of potential impacts to natural resources that have special status 
under existing law and policy (e.g., a use that could have significant 
impacts to a Special Aquatic Site protected by the Clean Water Act); 
and (3) the significance of potential impact to values expressed in the 
Oceans Act (e.g., areas of high fishing effort and value).
    Once these planning criteria were defined, they were then 
correlated with data layers to represent the location and extent of 
human uses and natural resources.
    Uses and special status resources were then mapped by category of 
potential incompatibility or impact. These initial maps served two 
purposes: first, they provided the basis for screening and 
identification of areas suitable areas for large-scale wind energy 
development; and second, they provided the basis for considering 
management and regulatory options to be implemented by the ocean 
management plan.
    The maps resulting from the compatibility assessment analyses 
conducted for each category of use, activity, and facility allowed 
under the Ocean Sanctuaries Act formed the basis for consideration of 
planning and management options that were reviewed and discussed with 
the Ocean Advisory Commission. Three general management options were 
considered:

        1. Regulate as now, using ocean data for alternatives analysis 
        and performance standards in permit conditions;
        2. Designate specific areas for individual use based on data 
        and compatibility assessment criteria; or
        3. Apply a hybrid approach to: (1) designate areas for uses 
        with potentially significant impacts for which EEA has good 
        data; and (2) identify exclusionary areas, defined by resources 
        and uses subject to likely or significant incompatibility or 
        impact, applicable to spatially indeterminate uses or uses for 
        which EEA has poorer data.

    The management options were evaluated based on their ability to:

  <bullet> Advance the interests of the Oceans Act;

  <bullet> Protect the marine environment;

  <bullet> Avoid and minimize conflict with existing water-dependent 
        uses;

  <bullet> Provide flexibility for new uses and future changes to 
        management based on an increasing understanding of the marine 
        environment, new technologies, and evolving social values;

  <bullet> Apply management and regulatory limits that can be 
        substantiated by current data;

  <bullet> Use and streamline existing law and regulation to allow 
        regulatory decisions appropriate to the scale of potential 
        impact;

  <bullet> Employ new data and information within an adaptive framework

    As the management options for uses were being developed, in a 
parallel process, options for identifying and protecting special, 
sensitive, or unique marine and estuarine life and habitats was 
conducted (as required by the Oceans Act). Members of the Habitat and 
Fisheries Work Groups convened to develop an approach to address the 
requirements of the Oceans Act to identify and protect special, 
sensitive, or unique areas by developing the concept, methodology, and 
data for an ecological valuation index (EVI). The EVI is an attempt to 
systematically evaluate the ecology of Massachusetts waters using 
available data. The EVI was conceived and developed to be responsive to 
the directives of the Oceans Act, to incorporate existing ecological 
knowledge and data (qualitative and quantitative, as available and 
appropriate), and to be scientifically defensible and rigorous in 
approach. Not all data compiled by the Habitat and Fisheries Work 
Groups were used in the EVI development. Some data sets were spatially 
and/or temporarily incomplete and had limitations that precluded their 
use in this process.
    As a brief overview, the EVI begins with a compilation and analysis 
of existing spatial data regarding species occurring in the ocean 
planning area. Data for four marine mammal species, five bird species, 
five crustacean species, eight mollusk species, and 22 fish species 
were incorporated into the EVI. Individual datasets were then rated 
according to a standard set of ecological criteria (major contribution 
to survival/health of population, spatial rarity, and global and 
regional importance). The planning area was gridded into 250-meter 
cells and the values for each cell calculated based on the sum of the 
rankings of the dataset present in each cell.
    The intent of the EVI was to develop a scientifically defensible 
approach for differentiating areas in terms of their ecological value. 
Such a differentiation would support efforts to identify locations 
appropriate for particular uses and to designate ``special, sensitive, 
or unique'' areas of life and habitat, pursuant to the Oceans Act. 
Because it was a multi-species approach by design, it was also a step 
toward incorporating an ecosystem-based perspective into the ocean 
management plan.
    Limitations of the EVI included data availability (data for certain 
species or guilds are not available) and the spatial resolution of 
certain data leading to limitations on the conclusions that could be 
drawn. Additionally, our understanding of ocean habitats and species 
habitat requirements is continually evolving, as are the related data 
available to managers. The development of the EVI provided important 
information for use in ocean management plan specifically regarding how 
special, sensitive, or unique areas are identified and protected.
Current Status of Planning
    A public review draft of the ocean plan is due on June 30, 2009. 
Following public hearings and legislative review, the ocean plan will 
be promulgated by December 31, 2009.
Lessons Learned to Date
  <bullet> Marine spatial planning cannot occur in the absence of data 
        to characterize the human and natural components of the marine 
        ecosystem. Comprehensive data is not necessary, but a minimum 
        requirement is sufficient data to accurately characterize 
        baseline environmental and human use conditions. Baseline data 
        can be derived from data of varying temporal and spatial scale 
        and resolution.

  <bullet> Marine spatial planning is extremely time and labor 
        intensive and sufficient staff and agency resources are 
        required to address data, public participation, and planning 
        needs. The Massachusetts planning process was fortunate to be 
        supported by the Massachusetts Ocean Partnership, with funding 
        from the Gordon and Betty Moore Foundation. This support 
        allowed us to benefit from applied planning research, develop 
        significant new data, and greatly facilitated public and 
        stakeholder participation.

  <bullet> A related point is that for marine spatial planning, process 
        is substance. Acquiring, analyzing, presenting, and, based on 
        feedback, revising information in an iterative process with 
        public, stakeholder and decision-making audiences has been a 
        fundamental component of developing our ocean plan.

  <bullet> The principles and practices of marine spatial planning must 
        be interpreted within the specific political, legal, social, 
        and environmental context in which it is applied.

  <bullet> Marine spatial planning and, particularly, ecosystem-based 
        management address complex systems about which much is poorly 
        understood or unknown. We have not let absence of knowledge be 
        an excuse to not take action. However, a key principle has been 
        to continually review our planning material to ensure that 
        management decisions can be substantiated by available 
        information.

  <bullet> Similarly, we have not let the perfect be the enemy of the 
        good, and have embraced the ambitious schedule established by 
        the Oceans Act as the basis for establishing an adaptive 
        framework for future planning.

  <bullet> Last, the need for the coordinated and supportive 
        participation of the Federal agencies cannot be overstated. To 
        successfully support local and regional marine spatial planning 
        initiatives, we strongly believe that the National Oceanic and 
        Atmospheric Administration should have a centralized, 
        coordinating Federal role in working with states and regions to 
        advance Federal, regional and state marine spatial planning 
        policy and implementation. NOAA is operationally and 
        administratively well suited for this position by virtue of its 
        expertise and role in providing data, technical services, 
        research and coordination across Federal agencies related to 
        climate and weather, ocean and coastal services, charting and 
        observation, fisheries and marine resources, and regional and 
        state relationships.

    Senator Cantwell. Thank you, Mr. Babb-Brott.
    And now, our last witness, Dr. Kempton, thank you very much 
for being here and for your contributions to the oceans and the 
environment.
    Thank you.

              STATEMENT OF WILLETT KEMPTON, Ph.D.,

        ASSOCIATE PROFESSOR, COLLEGE OF EARTH, OCEAN AND

       ENVIRONMENT, AND DIRECTOR, CENTER FOR CARBON-FREE

       POWER INTEGRATION, UNIVERSITY OF DELAWARE; CHAIR,

         R&D SUBCOMMITTEE, OFFSHORE WIND WORKING GROUP,

                AMERICAN WIND ENERGY ASSOCIATION

    Dr. Kempton. Thank you, Madam Chair and Senator Snowe, for 
the opportunity to testify today.
    My topic that I was asked to speak on is offshore renewable 
energy. To evaluate ocean energy, we need to know the resource 
size in order to evaluate its significance to the economy and 
to the environment. Unfortunately, careful resource assessments 
have not been done for any ocean energy sources other than oil 
and gas.
    Using imprecise EPRI and DOE estimates--in my written 
testimony I cover this in more detail--but let us compare the 
U.S. energy use and electricity, 419 gigawatts. That is 419 
large nuclear power plants. I am taking Senator Snowe's way of 
describing a gigawatt.
    The offshore wind resource, using the same metric, is 450 
gigawatts. That is, it is greater than the entire electric use 
of the country. That is by a DOE estimate, which, I believe, is 
low. All other offshore renewable energy is about 50 gigawatts.
    Offshore oil extracted over 20 years and converted into 
electrical units is 185 gigawatts. So the offshore wind 
resource is twice the offshore oil resource. By this DOE 
estimate, it is about the same as our country's electrical use.
    So we hear lists of offshore renewable energy, and we want 
to develop research on many of those and develop devices. But 
if we want to deal with carbon dioxide and have a large 
offshore renewable energy industry, we have to focus on 
offshore wind, as I will in my comments that follow.
    Current offshore wind technology, developed primarily in 
Europe, is immediately applicable to areas with shallow water--
that is under 100 feet of depth--no hurricanes and no ice. That 
means the Northeast, shallower waters of the West Coast, and 
some areas of the Great Lakes. As the industry develops 
products which overcome these conditions, which I believe will 
happen in the next 10 to 15 years, all U.S. coastal areas will 
be potential offshore wind sites.
    There are environmental impacts of offshore wind and of all 
energy forms. Just as an example, I will describe an analysis 
we did of a 600-megawatt offshore wind farm proposed for 
Delaware. Six hundred megawatts in comparison to Delaware would 
provide 17 percent of the State's electricity.
    Negative impacts included bird kills. We took worst-case 
scenarios. Suppose everybody got it wrong, and they put it 
right in the middle of a flyway. We estimated 240 birds killed 
per year under that scenario. More likely, it would be 20 to 
50.
    There is a viewshed impact, which didn't seem to concern 
people in Delaware as much as it has in another state further 
to our north. But let us look at the positive impacts because 
you have to really look at the balance. It is the positive 
impacts minus the negative impacts.
    Overall human health benefit of this project due to reduced 
emissions of existing power plants was $53 million per year, 
broken out into 10 to 12 human deaths prevented per year, 203 
emergency room visits avoided, 5,000 asthma attacks avoided, 
and so forth.
    Looking at plant cooling water from our current power 
production facilities--again, they are shut down part of the 
time when you have a large wind farm added--600,000 fish fry 
and yearlings saved from death in power plant cooling per year. 
So comparing that against maybe 20 to 50 bird kills. A 17 
percent reduction in power plant CO<INF>2</INF> emissions 
statewide. So those are the overall positive and negative 
environmental impacts.
    I didn't talk much about CO<INF>2</INF> reduction, but if 
you look at offshore wind at a national and regional basis in 
terms of CO<INF>2</INF>, it boils down to this. Offshore wind 
today is the only power source that coastal States have at hand 
at a scale that can significantly slow CO<INF>2</INF> emissions 
and at moderate cost. That is cost close to today's cost of 
power in coastal areas in the East at least, and that is with a 
nascent industry.
    I will discuss State and Federal permitting processes 
briefly, identification of optimal sites. We have observed a 
process of picking sites and negotiating with state governments 
and publics in Massachusetts, Rhode Island, New York, New 
Jersey, and Delaware. The process that has occurred in most of 
those areas, the State has requested power bids.
    Massachusetts is the exception, where the developer came in 
and just said we want to use this block of water. In all 
others, it has been driven, first, by the state government. 
Then applicants--that is, developers--apply, seek information, 
investigate locations, and then propose two or more site 
options.
    The next step is that State environmental and power 
planning officials recommend for or against these developer 
proposed sites in contract terms. Then if the State process is 
successful, it goes on to the Federal process, and then, thus, 
allocation of water space. And upon successful completion of 
environmental permits and reviews, financing, then the project 
is built.
    I describe in more detail in my written testimony the 
concern that our analysis raises with a competitive process 
going on at the State level over power, the lowest-cost power 
and some environmental review by State coastal managers, then 
getting handed over to MMS, which is requiring by law a 
competitive process in bidding for water.
    So you could have a developer that has a contract for power 
that has been approved by one environmental process then going 
into a second competitive process for water space, where they 
could have a speculator bidding against them and really 
couldn't do anything with it, but would make it difficult to 
continue that process.
    So I would ask that that might be something that would be 
considered as an amendment to the authorizing law for the MMS 
to site offshore renewables.
    I think I will have to have a longer discussion. Maybe at 
lunch, Mr. Babb-Brott and I could talk about spatial planning. 
I think it is a useful planning exercise. I think it is very 
important to do, as he has, leave the majority of planning area 
unallocated. I think it is very hard to divide up every single 
bit of space now, as technologies are just being developed and 
as the environment is changing very rapidly.
    In my written comments, I go through a detailed assessment 
of the resource potential in the Mid-Atlantic, and just to hit 
the bottom line, using current technology, only shallow water, 
we find the practical offshore wind resource from North 
Carolina to Massachusetts is enough to power all electricity 
for those coastal States, displace all gasoline for their 
entire light vehicle fleet, and provide all building heating 
fuels. That uses two-thirds of the shallow water offshore wind 
resource.
    It is very large. And that is why I said in the beginning I 
think these DOE estimates are quite low, but even they show 
this is the largest resource.
    How would we do that? It could be built in 15 years with 10 
manufacturing complexes in the region, each employing perhaps 
500 people, a subcomponent supply chain and 10 construction 
crews with associated installation vessels.
    In other words, we have tried to calculate this resource is 
large, yet it could be developed in 15 years with a plausible 
set of industrial complexes in the region. And I would like to 
volunteer two automobile plants in Delaware, which have been 
shut down in the last 6 months as part of that.
    If we did build this out, we would reduce CO<INF>2</INF> 
emissions from the area by 68 percent. So I have specific 
recommendations as to law, which I will leave to the written 
version.
    Thank you very much.
    [The prepared statement of Dr. Kempton follows:]

  Prepared Statement of Willett Kempton, Ph.D., Associate Professor, 
   College of Earth, Ocean and Environment, and Director, Center for 
   Carbon-free Power Integration, University of Delaware; Chair, R&D 
    Subcommittee, Offshore Wind Working Group, American Wind Energy 
                              Association
    My name is Willett Kempton. I am Associate Professor at the 
University of Delaware College of Earth, Ocean and Environment, and 
Director of the University's Center for Carbon-free Power Integration. 
I serve as Chair of the R&D Subcommittee of the Offshore Wind Working 
Group of the American Wind Energy Association. At the University, I 
direct research on carbon-free energy by about 25 researchers. I have 
published extensively on energy and the environment.
    Today I speak on the basis of my expertise; I am not representing 
the position of any organizations with which I am affiliated.
Comparing Ocean Energy Resources
    I start by estimating the size of several ocean energy resources. 
This is important both to know how much economic activity each could 
stimulate, and to see which of them could make significant impact on 
other national goals such as energy independence, reduction 
CO<INF>2</INF> emissions, and reduced external payments.
    Unfortunately, careful resource assessments have not been done. In 
Table 1, I review existing estimates that are imprecise but allow an 
initial comparison for discussion. The ocean renewables estimates draw 
on a recent NREL/DOE report (Musial 2008, table 3, in turn based on 
EPRI and earlier studies). I have added U.S. electricity consumption 
(top line) and OCS oil (bottom line) for comparison, and I convert TWh/
yr to GW<INF>a</INF>.
    A GW is 1,000,000,000 watts, the size of one of the largest nuclear 
or coal plants, and GW<INF>a</INF> (``a'' for ``average'') is a 
fluctuating amount with an average at one GW. For scale, one watt runs 
an iPod. One to two thousand watts runs an average house. A little over 
one GW<INF>a</INF> runs Delaware. 419 GW<INF>a</INF> runs the United 
States. By the estimate below, the U.S. offshore wind resource is 450 
GW<INF>a</INF>. I make a more detailed regional estimate below.

                 Table 1. Sizes of Ocean Energy Sources
------------------------------------------------------------------------
                Energy Source                    TWh/yr          GWa
------------------------------------------------------------------------
U.S. Electricity Use \1\                             3,670           419
\1\ U.S. EIA, Table 5.1. ``Retail Sales of
 Electricity to Ultimate Customers''
 Electric Power Monthly with data for
 February 2009, Report Released: May 15,
 2009. This figure is 2007 retail sales.
Deep Water >30-m Offshore Wind                       3,270           373
Shallow Offshore Wind                                  678            77
Wave Energy                                            252            29
Tidal Current                                           17             2
Ocean Current (Florida)                                 50             6
In-stream River Current                                110            13
Thermal gradient (OTEC)                         Very large
Offshore oil (64 BBO) \2\                            1,627           185
\2\ Mean Undiscovered Economically
 Recoverable Resources of the OCS, at $110/
 BBL, from Table 2, OCS Report MMS 2009-015.
 If natural gas is included, the resource
 would approximately double. To compare with
 electricity, oil energy is equivalenced to
 its energy content (1 BBL = 1,695 TWh),
 then to electric power at 30 percent
 conversion, and assuming a 20 year burn. If
 gasoline versus electric automobiles are
 compared, the conversion multiplier for oil
 should be 20 percent rather than 30
 percent.
------------------------------------------------------------------------

    The above table illustrates that offshore wind is the United 
States' largest ocean energy resource, even in comparison to offshore 
oil resources. Even based on the assumption in Table 1 that we drill 
very fast and pump oil out at a rate that would exhaust the supplies in 
20 years, offshore oil is only \1/2\ the size of the offshore wind 
resource.\3\ Of course, when we are done pumping, the oil is gone along 
with the associated jobs.
---------------------------------------------------------------------------
    \3\ If we assume instead that it takes 40 years to pump out all the 
offshore oil, the flow of oil would be roughly \1/4\ the energy of the 
offshore wind resource.
---------------------------------------------------------------------------
Offshore Wind Commercial Availability
    Fortunately, offshore wind is not only the largest ocean energy 
resource, but also the most commercially ready. Like the wind industry 
on land, it can be roughly divided into four industries: manufacturing, 
developing sites, installation, and operating. Over the past 4 years, a 
handful of U.S. developers have emerged, that is, firms that now have 
expertise in designing, siting, permitting, raising capital, closing 
the power contract, and preparing to build offshore wind facilities. 
And our marine construction firms could, with minimal re-tooling 
(including purpose-built vessels), build offshore wind farms. Our 
country lacks offshore wind manufacturing, but Denmark has been 
developing it for the past 15 years, and has had wind turbines 
operating at sea since 1990. So the industries and equipment are 
available to construct commercial-scale offshore wind facilities today. 
To add offshore wind manufacturing will take some policy effort, 
described subsequently.
    In short, the U.S. has offshore wind companies covering developers 
and operators, but currently not manufacturers. In 2009, for the first 
time we are beginning to see RFPs for offshore wind R&D. If we want 
manufacturers, we need an active and expanding set of developments, and 
DOE support for R&D in this area must continue and expand.
    Because offshore wind technology was developed in Denmark, it is 
best suited for offshore areas like Denmark--relatively shallow, and 
lacking both hurricanes and sheets of ice. This means the Northeast, 
parts of the west coast under 30 m depth, and some areas of the Great 
Lakes (Lake Erie). As R&D and private investment advance, the areas 
appropriate will expand as well.

  Table 2. Wind Technology Goals to Expand Offshore Wind's Geographical
                               Application
------------------------------------------------------------------------
  Technology Goal      Current State/need     Added Application Regions
------------------------------------------------------------------------
Current technology   In serial production    Northeast plus shallow
                                              areas of West Coast and
                                              Great Lakes
------------------------------------------------------------------------
Withstand floating   A few examples in       Great lakes
 ice impact on        Europe
 tower
------------------------------------------------------------------------
Withstand Category   Requires re-            Gulf; South of North
 5 hurricanes         engineering of          Carolina
                      blades, turbine and
                      controls
------------------------------------------------------------------------
Deeper platforms     Prototype in North      Expand turbine count in all
                      Sea; U.S. developer     areas above, especially
                      has licensed            West Coast
------------------------------------------------------------------------
Floating platform    Many designs; Statoil   More for West Coast; expand
                      floats 2.3 MW           reach further out OCS
                      prototype this          elsewhere
                      weekend
------------------------------------------------------------------------
Overall              Ongoing                 Reduce price and increase
 optimizations                                reliability in all regions
------------------------------------------------------------------------

    That is, with some continued development, offshore wind can be a 
very large power resource for all coastal areas of the United States, 
including the Great Lakes.
Environmental Impacts
    Offshore wind will have both positive and negative environmental 
impacts. The negative environmental impacts of offshore wind can be 
projected based on a long-term study of a Danish offshore wind farm 
(DONG Energy 200x), along with the now-completed Environmental Impact 
Statement for the Cape Wind proposal.
    The primary projected impacts are related to wildlife and 
aesthetics. To summarize, most birds that encounter offshore wind farms 
simply fly around. A few birds are displaced or killed. Off Denmark, 
Nysted was built in a duck flyway (Common Eiders). Despite that poor 
siting, estimated mortality was only 1.2 birds/year/tower. Since bats 
rarely fly over the ocean, significant bat effects are unlikely. Some 
people find the visual intrusion on the ocean negative; in Cape Cod our 
surveys show 43 percent opposed, whereas in Delaware, we found only 4 
percent opposed (Firestone, Kempton & Krueger 2008). Noise during 
construction could plausibly have an impact on marine mammals; knowing 
this, European offshore wind construction companies have developed 
methods for attenuating noise of construction. The towers offer new 
habitat for smaller organisms, in turn making them attractive to sports 
fishermen. No other significant impacts have been found in the cited 
studies. We should continue to study effects, but from thorough studies 
to date, the only notable negative environmental impact seems to be 
modest avian mortality.
    With offshore wind power, like other renewable energy, impact 
analysis is misleading without quantifying the positive impacts. For 
construction of a 600 MW offshore wind farm off Delaware, consisting of 
200 turbines, each 3 MW, we did a cursory impact analysis based on 
literature rather than direct measurement. We used the health impact of 
Delaware's current power production that would be displaced, along with 
a report on fish kills from current Delaware power plant cooling 
water.\4\ Offshore wind reduces air pollution and fish kills because 
the wind power production leads other power plants to throttle back and 
reduce output, and thus reduce pollution and water intake. We found 
that this one offshore wind farm would have the following yearly 
impacts:
---------------------------------------------------------------------------
    \4\ The study found that one large Delaware coal plant killed the 
equivalent of 800,000 year-old winter flounder during 1 year studied, 
more than 518,000 year-old Atlantic croaker and nearly 2.7 million bay 
anchovy (Montgomery 2008). If we here estimate by considering the 17 
percent reduction in power brought by the offshore wind facility as a 
rough approximation of fish and fry saved, that would be a reduction in 
fish kills of 683,000 per year.

---------------------------------------------------------------------------
    Negative impacts (projected)

        Up to 240 birds killed (240 is worst case--if mistakenly built 
        in flyway)
        View shed impact

    Positive impacts (projected)

        10-12 human deaths/year prevented
        203 emergency room visits (due to respiratory distress) 
        prevented
        5,156 asthma attacks prevented
        . . . total human health benefit $53 million/year
        683,000 fish fry and yearlings saved from death in power plant 
        cooling water
        17 percent reduction in power plant CO<INF>2</INF> emissions 
        statewide

    The above figures are based on literature and approximation rather 
than measurement after the fact or detailed modeling. However, it 
appears that the net environmental effect is positive rather than 
negative, by a substantial margin, even without considering 
CO<INF>2</INF> reduction benefits.
    If CO<INF>2</INF> reduction is considered an environmental benefit, 
as I emphatically believe it is, my assessment of the importance of 
offshore wind is this: Offshore wind is today the only large scale 
power source that coastal states have at hand, that can significantly 
slow CO<INF>2</INF> emissions at moderate cost. Due to the versatility 
of electricity, wind power is capable of displacing fossil electric 
generation, fuel for building heat, and fuel for cars. Because of both 
the potential for CO<INF>2</INF> reductions, and the economic benefit, 
I recommend some improvements to the permitting process in sections 
below.
State and Federal Permitting Process; How to Identify Optimal Sites
    Our research group has observed the process of picking sites and 
negotiating with state governments and publics in Massachusetts, Rhode 
Island, New York, New Jersey, and Delaware. There are two aspects, 
power planning and site selection.
    Regarding power planning, unlike offshore oil and gas, the process 
we have seen for offshore wind has been that a U.S. state initiates a 
process soliciting electric power. After the state government has 
established a need for power, and possibly negotiated an agreement to 
buy power via a power purchase agreement, the offshore wind developer 
begins the process to permit with Federal MMS. Cape Wind has been the 
sole exception, with the developer initiating the process, and the 
Federal permitting initiated prior to any power agreement with the 
state.
    The process is quite different from offshore oil, which in Federal 
waters has been permitted by the Federal MMS with little state 
participation. The difference is due to the transportability of the 
energy sources--oil can be shipped worldwide for little incremental 
cost, whereas electricity must be transmitted by high voltage cables, 
which to date have taken a short path from the offshore wind 
development to shore. For similar reasons, oil is traded on global 
markets, while electricity (including that from ocean renewables) is 
sold on state or regional markets.
    A processes that we see working well for identifying sites is:

        1. The state requests bids, for power or specifically for 
        offshore wind, along with criteria for picking the winning 
        bidder.
        2. Developers seek information about existing ocean uses, in 
        order to avoid conflict areas-this is in their interest, to 
        avoid places where coastal managers, residents, fishermen, etc 
        may oppose their proposed development.
        3. Developers study locations, including wind speeds, ocean and 
        subfloor conditions, and considering current technology, value 
        of power, their tolerance for delay due to controversy, etc., 
        then propose two or more site options.
        4. State environmental and power planning officials recommend 
        for or against sites and power contract characteristics 
        proposed by developer.
        5. If any sites are acceptable to the state, developer proceeds 
        to permitting, including environmental review by MMS, and 
        contract for use of ocean space.
        6. Upon successfully completion of all permits and reviews, and 
        financing, project is built.

    There is one problem in this process, created by the law that 
authorized MMS to carry out these leases. The developer has already 
gone through a bidding process and has been awarded a contract or 
permit to sell power to one or more electric entities ashore. One 
important criterion in their section would presumably be that the price 
of power was competitive. But since MMS requires competitive bids for 
ocean space, the space that the developer has already bid on in the 
state power process, now must be bid again with MMS, possibly against 
speculators who have no ability to even sell the power they would 
generate. In the announcement of rule, MMS tried to address this 
problem by saying that prior state competition would be considered in 
the competition for ocean space. However, it would be appropriate to 
examine whether it is appropriate to change the law, given that 
electricity is not oil, and that rules for competition are already well 
established in state and regional electric markets, and subsequent 
competition for offshore space may lead to speculation and gaming.
    Regarding choice of location, I feel that the optimum process is 
close to the numbered sequence above--that the state sets parameters, 
the private developer studies many sites then proposes a site, and the 
state selects. The developer must go through environmental review 
including any conflicting use and consistency with the state's coastal 
zone management plan. I do not include advanced spatial planning in 
this list, because I believe that no-one today can plan what will be 
the best location for a variety of technologies several years in the 
future. Also, I do not believe that spatial planning by state or 
Federal officials will be as thorough as that by a developer with 
investment at risk, followed by established EIS or EA processes.
    The agreement last week (June 4, 2009) among the Governors of New 
York, New Jersey, Delaware, Maryland, and Virginia, was that spatial 
analysis might proceed, but it should not cause any slowdown in project 
proposal and development. I believe this is the correct approach.
Economic Potential
    Here I summarize our more detailed resource estimate for the 
Northeast, then show how that translates into economic opportunity. In 
2008 we estimated the total offshore wind resource adjacent to the Mid-
Atlantic coastal states from North Carolina through Massachusetts 
(Kempton et al, 2008; attached). This was an arbitrary area manageable 
for a low-cost study, but one more detailed than anyone had previously 
done. We used 20 years of wind speed data from NOAA buoys, bathymetric 
data and sampled data on ocean uses such as shipping lanes or bird 
flyways that would exclude wind turbines. We assume only machines and 
towers that were either available or prototyped at the time of the 
study. And, we compared the offshore wind resource against energy 
demand of those Mid-Atlantic coastal states, electricity as well as 
gasoline for cars and heating fuels.

Table 3. Mid-Atlantic Offshore Wind Resource Compared With Energy Demand
                        (from Kempton et al 2008)
------------------------------------------------------------------------
                    Source/demand                             GWa
------------------------------------------------------------------------
Offshore wind                                                       330
Electric load                                                        73
Cars                                                                 29
Heating                                                              83
Total demand                                                        185
------------------------------------------------------------------------

    In other words, for the Mid-Atlantic, with a large shallow 
continental shelf, but with very high levels of population and energy 
use, our more careful resource assessment shows that the practical 
offshore wind resource is enough to power all electricity, all gasoline 
for automobiles, and all fuel oil, natural gas, and other building 
heating fuels. (My use of average GW is a simplification, as I do not 
address the match of fluctuating wind power and fluctuating load, which 
have to be matched.)
    To estimate the economic impact, assume we plan to build enough 
offshore wind to power electricity and cars but not heat, 108 
GW<INF>a</INF>. To produce 108 GW<INF>a</INF>, assuming a 40 percent 
capacity factor, would require 54,000 wind turbines each rated at 5 MW. 
Current wind turbine factories running 5 days and three shifts can 
produce 350 turbines per year. If we wanted to build 54,000 turbines 
within 15 years, we would require 10 factories. In addition we would 
need about 10 factories for blades and 10 for towers. This would be 
like 10 large automobile manufacturing factories, each employing 
perhaps 500 people, with approximately a 4x multiplier for indirect 
jobs among suppliers, a total of 20,000 jobs. This is one of several 
reasons that coastal states officials have preferred offshore wind to 
distant onshore wind (Bowles 2009; Svenvold 2008).
    I do not give these estimates in order to say that we should 
produce exactly this much offshore wind, or at this pace, but to show 
that the resource is very large, yet it could all be developed with a 
manageable industrial complex in the region. We can build a great deal, 
and even substitute electricity for end uses that not depend on liquid 
fuels, and not exhaust the resource. If the entire 185 GW<INF>a</INF> 
were developed, the Mid-Atlantic would reduce its CO<INF>2</INF> 
emissions by 68 percent. And such large reductions in CO<INF>2</INF> 
would have global significance in reducing the impact of ocean 
acidification and climate change on the oceans.
Industry Needs for Development
    Below are recommendations that would follow from my experience and 
from the above.

        1. Longer-term extension of the PTC, possibly limited to ocean 
        renewables. An offshore wind project could take 5 or 6 years to 
        complete, much longer than a land-based project. Investment in 
        manufacturing for offshore class turbines, towers and blades 
        would require at least 6-7 years of sales to return investment 
        in plant. The current 3-year PTC extensions insure that 
        manufacturing stays in Europe. Congress should pass a 10-year 
        PTC. This could limited, if necessary specific to offshore 
        renewable energy.
        2. Facilitate development of manufacturing of offshore-wind 
        manufacturing in the US.
        3. As noted above, R&D is needed to develop offshore wind 
        turbines that work in more U.S. regions, to improve on current 
        designs, to extend the coastal areas for which we have 
        turbines, to understand the resource, and for policy and public 
        opinion studies. The attached R&D Subcommittee document 
        suggests specific needs and rationale. In addition to the 
        attached wind R&D document, the U.S. should invest in long-term 
        research on other ocean energy technologies in Table 1.
        4. In particular, we should develop expertise in assessing the 
        offshore wind resource by several independent parties, not only 
        MMS or DOE but also by state governments and/or universities 
        working with state government power planners. My group has 
        produced guidance for others who want to get up to speed and 
        analyze their state offshore wind resource (Dhanju et al 2008). 
        Small grants for partnerships between states and universities 
        would seed this activity and provide local expertise on this 
        resource assessment.
        5. With many permit applications already headed to MMS, the 
        agency already needs more people. Need to fund MMS to allow it 
        to hire individuals to oversee the NEPA and licensing process.
Supplemental material
    1. Kempton, W., C. L. Archer, A. Dhanju, R. W. Garvine, and M. Z. 
Jacobson, 2007 ``Large CO<INF>2</INF> reductions via offshore wind 
power matched to inherent storage in energy end-uses'', Geophys. Res. 
Lett., 34, L02817, doi:10.1029/2006GL028016. (Retained in Committee 
files and available at http://www.agu.org/journals/gl/gl0702/
2006GL028016/.)
    2. Research and Development Needs for Offshore Wind, R&D 
Subcommittee, Offshore Wind Working Group, American Wind Energy 
Association. April 2009 [Retained in Committee files and available at 
http://www.newwindagenda.org/pdf/Offshore_R&D_Needs.pdf]
References
    Bowles, Ian, Home-Grown Power, NY Times Op Ed, March 7, 2009
    Amardeep Dhanju, Phillip Whitaker, Willett Kempton (2008), 
Assessing offshore wind resources: An accessible methodology. Renewable 
Energy 33(1): 55-64. doi:10.1016/j.renene.2007.03.006
    DONG Energy et al, 2006, Danish Offshore Wind--Key Environmental 
Issues, Published by DONG Energy, Vattenfall, The Danish Energy 
Authority and The Danish Forest and Nature Agency, November 2006 (Order 
from the Danish Energy Authority's Internet bookstore http://
ens.netboghandel.dk)
    Firestone, Jeremy, W. Kempton and A. Krueger, 2008, Public 
Acceptance of Offshore Wind Power Projects in the United States, Wind 
Energy 11. (DOI: 10.1002/we.316)
    Montgomery, Jeff , 2008, ``Indian River center of fish debate: 
Power plant's cooling system said to destroy millions of fish each 
year.'' The News Journal, January 3, 2008
    Musial, Walt, 2008, Status of Wave and Tidal Power Technologies for 
the United States. Technical Report NREL/TP-500-43240, August 2008
    Report to the Secretary, U.S. Department of the Interior, 2009, 
Survey of Available Data on OCS Resources and Identification of Data 
Gaps. OCS Report MMS 2009-015
    Mark Svenvold ``Wind Power Politics'' New York Times Magazine.
    For further information on offshore wind, including our articles 
cited above, see www.ocean.udel.edu/windpower, and 
www.carbonfree.udel.edu

    Senator Cantwell. Again, I want to thank Dr. Kempton for 
his testimony and following what has happened in the previous 
energy bills and things we might do to improve it.
    I thank all the witnesses again for their testimony.
    I am going to turn to Senator Snowe for her questions.
    Senator Snowe. Thank you, Madam Chair. Thank you very much 
for allowing me to go first.
    I just want to thank all of you for your very powerful 
testimony. The Chair and I were just discussing it would be 
nice if all members of the Senate could hear your testimony in 
terms of the contributions that the ocean makes, and also the 
impact on the ocean and the severity of many of the 
consequences that we are facing now and well into the future if 
we don't reverse course here on many levels. So I really 
appreciate the dimensions of what you have offered here today 
in your respective testimony and professions.
    I know, Dr. Kildow, you mentioned in your report how 
Federal investment in ocean and coastal communities has been 
woefully insufficient. I think it was like $9.5 billion, or 0.3 
percent of the Federal budget. Where do you think we could be 
most useful in making these investments?
    And you mentioned also, which I thought was very 
interesting--I hesitate to ask this as well--but over the next 
30 years you said would bring significant changes to the oceans 
and the coastal communities, the most significant since the 
industrialization and urbanization of the late 19th century. So 
why do you expect that to happen?
    And I will ask any of you or all of you to respond. Where 
do you think we should be making our mark, either in 
investments or on the issue of expertise in climate science, 
which is obviously an area of our jurisdiction with NOAA? And 
what is the investment we need to make because, obviously, the 
impact goes beyond industrial activities, the acidification 
that you are all talking about, the ecosystems that are under 
attack, and how are we going to reverse course?
    Because what you were saying, Mr. Warren, about the fact 
that it is irreversible. The fish are gone. Can you rebuild the 
stock? Well, no. That is disconcerting, and it is breath-taking 
for those of us who depend on the fisheries, as our country 
does.
    So can you just tell us very quickly what you think we 
should be focusing on in this committee both from the 
standpoint of the investments or expertise in climate science 
or whatever. Dr. Kildow?
    Dr. Kildow. I would suggest that because the Government has 
jurisdiction over most of the natural resources along the 
shoreline, whether it is State government or Federal 
Government, Federal and State governments should work together 
to preserve, restore, and strengthen the resiliency of 
estuaries, beaches, the shoreline. Those are our protection 
against a number of the environmental changes that we face.
    Without those and the strength of those, we are just going 
to receive even worse impacts than we would have anticipated. 
So I would recommend the investments go where the Federal 
Government can make them most and where others are less likely 
to make them, and that is in restoring and strengthening 
estuaries, making sure that beaches are secured where they 
should be secured. Where they are going to naturally erode, we 
have to let that happen.
    But the beaches are worth billions of dollars a year. Our 
estuaries do so much protection of our shoreline. So I think 
the natural resources are really where you should be focusing, 
and the industry can look to others.
    I also think that you can help local communities plan for 
the effects that are coming from climate change impacts. Local 
communities are really, in some cases, clueless as to what they 
can do, how they can do it. So they need planning money. They 
need technical assistance, and they need to be able to figure 
out how to mobilize their communities so that they can 
withstand the inundation and all the other kinds of climate 
change impacts. So that is what I would do.
    As far as the shoreline changing over the next 30 years, 
what we were referring to is the fact that infrastructure is 
going to be deeply affected. I live in California, and we just 
put out a report, the Pacific Institute did, that identified 
inundation areas. And things like San Francisco airport and our 
ports are ground zero for a lot of the flooding and inundation.
    And we have to figure out how we are going to deal with 
these shoreline infrastructures that support our very 
economies. So it seems to me that we are going to envision a 
very different shoreline, configured in very different ways, 
and we need to start planning now because these are not changes 
that we can make in 5 years or 10 years. It is going to take a 
while to either protect or to relocate a lot of our crucial 
structures.
    My understanding also is that people will be much more 
inclined to move toward the coast for water purposes and 
weather purposes due to climate changes. And so, we are going 
to really be looking at even more intense pressure, population 
pressures on the coast.
    We are going to need to figure out how to reconfigure 
housing, maybe build higher. But we need to think out of the 
box. We need to think about how we can live sustainably and 
have a good standard of living with these changes that are 
underway. And the next 30 years are going to be critical in our 
doing that.
    Senator Snowe. Thank you.
    Ms. Cousteau, any comments?
    Your testimony was very powerful as well and eloquent about 
the impact.
    Ms. Cousteau. Thank you, Senator Snowe.
    Senator Snowe. In Louisiana, the dead zone and so on has 
been a major conversation here, and we have made efforts 
concerning dead zones and hypoxia, and it is true. I mean, we 
have got to try to retard this expansion of these dead zones.
    Ms. Cousteau. Thank you, Senator Snowe. I appreciate your 
comments.
    And I feel strongly that we too often overlook the value of 
ecosystem services as we make our decisions about how to 
allocate resources. The communities that I have spent time with 
not only here in the United States, but around the world are 
the ones who have no alternatives. They have nowhere else to 
go. They have no last resort. And the communities of Golden 
Meadow in Louisiana were no different.
    If we are to really take a stand on protecting our oceans, 
we need to start with concern for the communities that are 
being impacted by the degradation of the oceans and 
understanding how that happens and what the consequences of 
that will be. Which is why I said that ocean policy starts on 
land. It starts in St. Louis and the decisions that are made on 
the Mississippi River.
    It starts on the Rio Grande. It starts with everyday 
people. And if we are able to truly integrate ocean policy into 
policies for climate change, agriculture, urban development, 
energy, then we will see the kind of change we need to out in 
the open ocean.
    Senator Snowe. Thank you.
    Anyone else care to comment? Dr. Fenical, anything that we 
should focus on, very quickly?
    Dr. Fenical. Just one comment.
    Senator Snowe. Yes.
    Dr. Fenical. Just one comment that I think it is a very 
important activity to convince the public that these oceans, 
and particularly coastal resources, are of great value to them. 
That without their understanding of what this contributes to 
their daily lives, you will have some difficulty.
    And a case in point is a product that was developed in the 
Bahamas Islands that was a cosmetic product derived by working 
with a marine animal from that area. It was of such economic 
value to the local communities that they literally quit fishing 
and quit focusing on some of the fishing resources that were 
dwindling in numbers in that area.
    And so, I think developing a number of coastal industries 
that focus on marine products will help greatly in convincing 
people to work with their coastal resources.
    Senator Snowe. Thank you.
    Mr. Warren. I will add a couple of points. With respect to 
fisheries and research investments, I think there are a couple 
of guides there. One is a study done by the National Academy of 
Sciences, led by Kleypas in 2006, that articulates a research 
agenda for ocean acidification. It is a good place to start. 
Funding the things they call for there would make sense.
    To step a little beyond my canon into the territory of Dr. 
Fenical, if we want to preserve the value the ocean is 
generating that we haven't even begun to harvest yet in 
pharmaceutical products, we might want to think about where 
that value is. If it is like the land, a lot of it is in things 
that sit still instead of swim--plants, not animals; corals; 
fixed living organisms that generate compounds that they need 
in order to survive because they can't run away from predators.
    That very complex chemistry they develop is going to be 
rich, and we are going to lose a lot of it fast if we don't get 
on it and figure out, one, how to reduce the CO<INF>2</INF> 
input and, two, how to remove some of those organisms from a 
vulnerable environment and put them in protected aquarium 
environments where we control the seawater content.
    That is a long-term conservation need that will serve the 
development of a pharmaceutical industry based on ocean 
products. I regret to say we might need that kind of 
protection.
    And beyond that, I can't say enough--make a strong carbon 
policy. If we don't do that, everything else that we think 
matters about the ocean is over.
    Thank you.
    Senator Snowe. Thank you.
    Mr. Babb-Brott. Very briefly, Senator Snowe, I would offer 
three suggestions. Baseline oceanic data, a crucial component 
of all of the work that is represented by the folks here on the 
panel. A framework for Federal policy that supports and 
integrates state initiative, also very important. Each of the 
States, as you have heard Dr. Kempton talk about, have taken 
similar, but somewhat different approaches to addressing their 
issues.
    Like the CZMA, there needs to obviously be national 
consistent policy. But it also needs to support and enhance the 
initiatives that States and regions have undertaken themselves.
    Last, I would reiterate the support for and the 
recommendation that NOAA's coastal mission be elevated and 
provided adequate support. All of the panelists have spoken to 
the importance of the coastal interface, both economically, 
socially, environmentally, everything about it. NOAA really is 
uniquely suited to serve that coordinating role, and that 
coordinating role is very much needed.
    Thank you.
    Senator Snowe. Thank you.
    Dr. Kempton?
    Dr. Kempton. Thank you.
    On research that might be within NOAA's jurisdiction, I 
think is the question. I would agree with Mr. Babb-Brott that 
baseline studies are very useful. For in particular introducing 
new renewable resources like offshore wind, we would like to 
know--in our region, we would like to know the Atlantic flyway 
much better, have a region-wide bird study so we could see how 
to avoid impacts there.
    Also the type of study that I described of resources that 
is not available, and you mentioned some work in Maine. I 
believe that was done by your local university. So I think some 
funding for local universities working with State governments 
to assess offshore renewable energy resources would be quite 
valuable and would help get local academics up to speed, as 
well as informing State decisionmakers.
    And a last specific one, NOAA maintains a wonderful set of 
buoys, mostly near the surface, 10 meters. It would be very 
valuable to have a string of towers at 100-meter height, which 
is the turbine hub height. They are expensive, $5 million each. 
But you can put in a string of them for much less than doing 
one at a time, and it would give us a much better idea of the 
resource out there, as well as improving models of marine 
meteorology.
    Senator Snowe. Again, thank you all very much.
    Thank you, Madam Chair.
    Senator Cantwell. Again, thank you, Senator Snowe, for 
being here. I know you have got a busy schedule this morning, 
as we all do.
    I was mentioning to Senator Snowe, we are also in the 
middle of an Energy Committee markup in which right now the 
debate is going on about opening up more offshore drilling, 
which I find to be very conflicting to the information that is 
being provided here today. So, hopefully, we can get our 
questions in and get over to that debate so I can add my voice.
    I wanted to start with you, Mr. Warren, furthering the 
discussion on ocean acidification that you were just having. 
And I think the thing that people may miss sometimes or don't 
fully understand is that oceans have already absorbed nearly 
one-third of the CO<INF>2</INF> added in the atmosphere. So we 
are already seeing this problem.
    And for us, in Washington State, I don't know how familiar 
you are with the shellfish industry--I know you are working 
with the industry overall--but they are currently reeling from 
these bacteria and disease-carrying pathogens that are 
hindering the seed growth for the shellfish industry. So these 
types of bacteria are already spreading because of temperature 
changes in the water and because of global warming.
    So what else can we do? Do we not have the sufficient or 
significant scientific data necessary? Because this is, for us, 
well, it is a $100 million industry in the West in general, and 
I think we are probably about $97 million of that in the 
Northwest. So it is a very big impact to us.
    So what else do we need to do to prove to people that this 
is a problem that is here today and real?
    Mr. Warren. Well, I think you hit it on the head. We need a 
little more research to really prove that this problem is 
caused by the combination of warming, hypoxia, and 
acidification. Those are the strongest suspects in the oyster 
crisis.
    We have had a four-year run of reproductive failure in that 
industry. And if the things you grow don't reproduce, you have 
got a problem. They are failing either because of an organism 
that thrives in hypoxic, acidified water or because of the 
direct effects of acidification and hypoxia. We don't know 
which one yet.
    The work to do that, if people are defining--go ahead.
    Senator Cantwell. Can you explain why would that matter? Or 
does it?
    Mr. Warren. In order to figure out which nail to hit, it 
helps to know which one is actually holding the problem in 
place.
    Senator Cantwell. Well, if the cause is the same, though?
    Mr. Warren. If the problem is CO<INF>2</INF> and the 
underlying assumption behind both analyses is correct, then it 
is CO<INF>2</INF> we need to get at. But until we have strong 
data showing the economic impacts of essentially a non-
CO<INF>2</INF> policy, of not doing the job, until we have the 
economic and scientific basis to make the case that this is 
jobs, livelihoods, food, lots of things that matter, then we 
are going to have a hard time defending the policies that are 
necessary to implement--to deal with that CO<INF>2</INF> 
problem.
    Senator Cantwell. Wouldn't that lead to disastrous results, 
though? Wouldn't we have to wait--you are saying wait for 
disastrous results to prove that?
    Mr. Warren. Well, that is one way to do it. Another way 
would be to do a very rapid investment in research to establish 
what is causing the problem so that we can stand up and say 
here it is. This is what is driving the problem here. It is 
causing a lot of harm to an industry worth 100 million bucks a 
year, and it is going cause a lot more.
    And that is a good case study to think about funding 
research in, and there are people working on a research agenda 
for that, and they are worth talking to. They are asking good 
questions.
    Senator Cantwell. We are very interested and very 
supportive of that kind of research because we see the problem 
coming at us very directly now in the Northwest. And if this is 
the kind of thing that can happen in other industries--I mean, 
sorry, other sectors of the seafood industry, it is going to 
cause huge problems for us.
    Dr. Fenical, you are a supporter of more research. You 
mentioned the Oceans and Human Health Act. What do we need to 
do, more specifically? I know we have authorized about $60 
million, but I don't think much has gotten appropriated in this 
area.
    What do we need to do to change the research and get the 
right research that both helps us address the adaptation and 
impact issues as well as the kind of advancements that you are 
suggesting in medicine?
    Dr. Fenical. Well, I think that is right. I think the 
problem is that there is authorization, but no research dollars 
or very small numbers of research dollars coming down to 
address these problems. I think it is a matter of understanding 
that the uniqueness of the oceans and human health legislation 
and the fact that we can address through that resource some of 
the problems that Mr. Warren has talked about and, in addition, 
the positive health benefits of the ocean.
    So it is quite an overreaching legislation that I would 
argue is growing in importance each day and that we should 
support very strongly.
    Senator Cantwell. And how would you direct those research 
dollars? What is the best way to, if we want to accelerate what 
we have done so far, both in the amount of money, but obviously 
because these very species and sources that you are talking 
about getting data from are also in jeopardy.
    Dr. Fenical. Exactly.
    Senator Cantwell. So what is the best way to pursue that 
research?
    Dr. Fenical. I think the problem----
    Senator Cantwell. Through our universities and institutions 
or----
    Dr. Fenical. I think one of the problems with the Oceans 
and Human Health Act is that it is struggling to know how to 
effectively allocate those moneys. On one hand, the Oceans and 
Human Health addresses negative health benefits of the ocean 
and of inhabitants or organisms within the sea, and on the 
other hand, addresses the positive health benefits the ocean 
will provide and has provided.
    And so, in fact, the total allocation of funding through 
NOAA may not address the positive aspects of health. But I 
think NOAA allocations and previous allocations through the 
National Institute of Environmental Health Sciences and the 
National Science Foundation do have the opportunity to address 
head-on the elements of climate change, ocean acidification, 
and so on.
    But we have to act through that Oceans and Human Health 
legislation. It has to be strong and directed to create 
programs to solve these problems.
    Senator Cantwell. Thank you.
    Did you have a comment on that, Dr. Kildow?
    Dr. Kildow. Yes. I have two comments. Number one, on the 
ocean acidification research, I think that several panelists 
have mentioned that we really don't quite know the impacts of 
the acidification problem yet on marine creatures. We have a 
lot of information, but we really don't have a definite 
predictive capacity.
    I think that more money needs to be put into doing the 
experiments, which are very expensive, to determine the impact 
of acidification on living resources, including the kinds of 
problems that we are talking about up in your state. So that 
would be the first thing that I think is overlooked.
    It is assumed that the scientists can do it, but it is very 
expensive, especially in deep waters, to figure out the impact 
on the food chain.
    The second thing I would suggest is that we are all talking 
about jobs. We are all talking about the economy of our States, 
and we are all talking about the survival of certain 
industries. We do not have good economic data, particularly on 
the fishing industry.
    Fishermen have been exempted from reporting the way other 
industries do. They are self-employed as far as categories of 
IRS. And for those of us collecting economic data, we cannot 
get data on the number of fishermen, on their earnings, and 
therefore, it is very hard to know what the potential losses 
are to the industry. They don't come under the unemployment 
rules.
    So this has been a big handicap for all of us collecting 
data. When buyouts of fishermen are done, this is done by the 
seat of the pants because we don't really know what they should 
represent. That is one of the things.
    The other thing is that the collection of economic data in 
general, the kind that my report reports, has just not been a 
very popular kind of activity. It is research. It is as 
important research as the scientific research that my 
colleagues have been discussing on this panel.
    And yet it has not been considered research, and it has not 
been funded. And it has not--there is nothing in the funding 
for the future that is going to do it either. As I said at the 
end of my talk, the economic research that we have been doing 
has come to an end. There is no more money for it.
    So if we want the kind of data about ``blue'' jobs, about 
sustaining our economy, and how important the kinds of things 
that all of these people have been talking about, we do not 
have a facility for doing that. And the Government needs to 
keep ocean accounts. There is just--we are one of the few 
governments in the industrialized world that is not doing it 
now.
    Canada, the UK, France, the European Union, Australia, New 
Zealand, I could go on. Their governments are all supporting 
ocean accounts. Our Government is not. I think it is really 
important for us to have the information that you are seeking 
that we keep ocean accounts and understand the Blue Economy, 
the jobs that are to be gained or lost from what is happening.
    Senator Cantwell. Well, I couldn't agree with you more. We 
have talked a little bit about the impact on the fishing 
industry. We haven't really talked about how climate change can 
change water levels, and that impact on coastal communities and 
what that can mean. But for us, the port of Tacoma was 
responsible for $35 billion in total trade in 2008, with 
113,000 jobs; the port of Everett, $17 billion and 2,600 jobs; 
Seattle, $40 billion and 190,000 direct and indirect jobs.
    So I hear you. These kinds of changes to our oceans and 
waters will have huge impacts on these economies. And I think 
today's hearing has shone a bright light on that.
    And Ms. Cousteau, you talked about this as it directly 
impacted New Orleans. But how do we get this message across 
about the adaptation that has to happen? Do you think that we 
are just missing this information or research, or do you think 
there is more to it?
    Ms. Cousteau. I think that, as my colleagues here have 
mentioned, we do need to invest an enormous amount of money in 
research and evaluation. I also think that we have 
underestimated the importance of communication and engaging 
individuals to understand how they are part of the solution, 
how we are downstream from one another, and how we all have to 
play a role in the protection of our water resources.
    What astounded me when I was in Louisiana was that the 
Mississippi River drains 40 percent of this country, from 
Montana to Pennsylvania. And all the way down to Louisiana, the 
actions of every individual impact that enormous watershed that 
tells the story of this country. And being able to engage 
people in that so that they understand how they impact one 
another is incredibly important.
    I think Government agencies have a big role to play in 
that, and NOAA has wonderful educational programs. But I think 
that is incredibly important for all of us to share 
responsibility for our resources and the stewardship of our 
resources and the understanding that we are all downstream from 
one another and the choices that we make impact people 
downstream.
    And I will just end with this. It was very moving to spend 
time with these Cajun fishermen. I have spent time with 
fishermen in Panama and in Africa and all over. But these men 
and women were really living on the edge. They were surrounded 
by water where there had once been fields. Now it was ocean.
    And their levees were the only thing that was separating 
the Gulf from their homes. And they were talking about farmers 
upstream and the impact of the agricultural runoff, and why 
didn't we take action to protect the fisheries from overuse of 
fertilizer?
    And I think that it is incredible when you think that if a 
cloud of toxic gas were to cover New Jersey and the only things 
that could survive were ones that could run out of the State, 
that is what is happening in the Gulf of Mexico. This cloud of 
hypoxia covers an area the size of New Jersey, and the only 
things that survive are what can escape that area.
    People will go to the beach with their buckets and catch 
shrimp that are jumping out of the water to breathe because 
they can't breathe in the water anymore. And as Mr. Warren was 
saying, when the water is not fit for life, then we have a big 
problem. And short-term priorities can no longer get in the way 
of our long-term priority of protecting life in the oceans.
    Thank you.
    Senator Cantwell. Thank you.
    I said in my statement, and Dr. Kildow, you mentioned the 
NOAA budget. And I have said we need to at least double it. Of 
its $4.48 billion, I know that EPA is getting something like a 
37 percent increase right now.
    What do we need to do to get the resources? What are we 
talking about here to adequately get the resources to address 
this issue? Each of you could comment on that.
    Dr. Kildow. I think that people need to understand, in the 
inland States as well as the coastal States, the urgency of 
these problems. I think that if people understood urgency--I 
think that they understand there are problems. I don't think 
they get the urgency of what is happening.
    And somehow, we have to be able to communicate better that 
there is urgency because I think if you and your other elected 
colleagues would understand that we do not have much time and 
that there will be calamitous effects if we do not act, that 
NOAA and the climate change programs would and should get the 
money that they deserve to do the work that is just so wanting.
    I don't know what else to suggest. It has been a big 
frustration. Scientists are stepping up. They are speaking out 
now. They are testifying.
    But I think that people in the Midwest, in the areas that 
drain into the Mississippi need to understand that the U.S. 
economy is the coastal economy. We can't look at it any 
differently now, and they need to understand that the coasts 
are their lives and their livelihood. So that Kansas City as 
well as Long Beach are dependent on the same economy.
    Senator Cantwell. So that sounds to me like maybe a little 
more than doubling of the budget over 4 years. Is that a yes or 
a no?
    [Laughter.]
    Dr. Kildow. You know, I couldn't begin to tell you how much 
resources, but what I was trying to show is that over the 
years, as the problems with the ocean have increased, the 
percentage of the Federal budget that has been dedicated to the 
oceans has decreased.
    Senator Cantwell. Has decreased, yes. Thank you.
    Ms. Cousteau or Dr. Fenical, do you have a number or an 
idea of how we should look at this?
    Dr. Fenical. Well, one of the concerns I have is the issue 
of really funneling research funds to those people in a 
position to examine some of these issues. And it strikes me 
that the issues are not the same for all of us. In fact, 
coastal States are obviously not the same. They have different 
problems. They have different issues.
    And I want to refresh your memory about the Department of 
Commerce Sea Grant program that is a national program, but is 
dedicated to create research activities around the sea in each 
of the coastal and Great Lakes States. This program frequently 
creates new initiatives. It creates activities, both of 
positive and negative impacts from the ocean. And I think it 
could be used very effectively to focus funding for these 
activities.
    Senator Cantwell. OK. And Mr. Warren or anybody else on the 
panel?
    Mr. Warren. I will give you two quick thoughts. The numbers 
I hear about in terms of what people think it will take to fund 
a really good national ocean acidification research program? 
About $30 million a year. So probably doable if we pay 
attention.
    One of the concerns that some people have raised, and I 
think it is a valid one, is if we fund that by robbing Peter to 
pay Paul, dipping into the funding to support fisheries survey 
work, we are really not serving the cause. Because that data is 
how we try to maintain sustainable fisheries. We are going to 
have to do both.
    We are going to need that steady flow of fishery survey 
data, and we are going to need a whole new raft of data about 
changing ocean conditions in order to make sure we understand 
it well enough to manage.
    Senator Cantwell. Thirty million hardly seems like a lot of 
money if we are the third-largest economy in the world. If you 
are taking the ocean communities and saying they are the third-
largest GDP in the world, $30 million to help deal with ocean 
acidification seems like next to nothing to protect that huge 
resource for our economy.
    Dr. Kempton or Mr. Babb-Brott, do you have any comments 
about----
    Mr. Babb-Brott. I would offer briefly that regardless of 
what the number or what the appropriate number is, we have an 
obligation, I think, to use the resources that we do have or 
that we could acquire wisely, and I know I mentioned this in my 
testimony. But I would reiterate that we can use the Federal 
budget more efficiently through centralized and coordinated 
action by the Federal agencies.
    From a parochial management interest at the State and 
regional level, it can be a frustrating thicket to navigate, 
and it certainly impedes the kind of creative, constructive 
initiative and response to the issues that we have been 
discussing here this morning. Again, I think that NOAA is well 
suited to handle that role.
    Thank you.
    Senator Cantwell. Dr. Kempton?
    Dr. Kempton. I certainly think that increasing the amount 
of effort on ocean acidification would be very valuable. I am 
not sure if we need to just prove that it is happening, 
although that probably helps to get increasing numbers of 
people buying into it. But as my remarks mentioned, I think it 
is important to also have researchers working on solution 
paths.
    I see a lot of elected officials who are ready to do 
something, but they are not sure what to do. So in addition to 
demonstrating the effects, which can already be seen in 
fisheries and dead zones and so forth, it is important to work 
on the how you reduce the amount of CO<INF>2</INF> that humans 
are putting into the atmosphere.
    And if you just sort of pour money in the top, that can 
be--that can all go to sort of traditional activities, whereas 
prevention of CO<INF>2</INF> emissions is not central to the 
way NOAA may see its mission, although they do have some 
departments. So I think some direction from the legislative 
side on working on solution paths because a lot of the solution 
paths, at least for coastal States, are also in the ocean.
    But coastal managers may not see themselves as those who 
are supposed to facilitate development of ocean renewable 
energy resources, for example, but they could play a productive 
role there.
    Senator Cantwell. And what about adaptation? Is that part 
of the solution kit? Is that what, when you say ``solutions,'' 
are you talking specifically about----
    Dr. Kempton. Well, a person--sorry.
    Senator Cantwell. Or were you talking about the reduction 
of CO<INF>2</INF>?
    Dr. Kempton. I was talking about reducing CO<INF>2</INF>. A 
personal reaction to your question is adaptation I find very 
frightening. We live in a very low-lying State, and talking 
about adapting to sea-level rise means essentially abandoning 
Delaware. It will be an archipelago. And I think you could say 
the same type of things about shellfishing in Washington.
    So I don't think there is any adaptation to that. That is 
why I am focused in my research and our whole group on 
prevention, which means keeping CO<INF>2</INF> from going into 
the atmosphere, which means changing energy production and 
agricultural activities.
    Senator Cantwell. Well, I think there are some who believe 
that if we actually do the work behind adaptation, it would 
become clear to everyone that that is not a sustainable route. 
That it is only a temporary issue for dealing with the impacts, 
but the real issue is to change course. So I appreciate you 
bringing up that point.
    And I want to thank all of the witnesses for your testimony 
today. We are going to leave the record open so that my 
colleagues can submit questions, and hopefully, you can get a 
quick response. But we do plan to move on legislation in this 
area, and we thank you for helping us build a record to show 
how incredibly important the Blue Economy really is to our 
country and what we need to do to protect it.
    This hearing is adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]
                            A P P E N D I X

         Prepared Statement of Senator John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Our oceans and coasts are sources of great economic and 
environmental wealth for the Nation. Nearly 80 percent of U.S. import 
and export freight is transported through seaports. Our 3.4 million 
square mile Exclusive Economic Zone (EEZ), the largest in the world, 
covers an area greater than the entire United States.
    The Blue Economy--jobs and economic opportunities that emerge from 
our oceans, Great Lakes, and coastal resources--generates more than 50 
percent of our Nation's Gross Domestic Product and provides over 70 
million jobs to Americans. Simply put, the economic health of America 
is undeniable linked to the riches of our oceans and coasts.
    Today's witnesses have compelling stories to tell us about the Blue 
Economy and its importance. From food to fuel, we rely on oceans for 
goods and services that drive the economy. America is on the cusp of 
major developments that could produce new ``blue'' jobs in renewable 
ocean energy development, aquaculture, marine drugs and products, and 
ocean exploration, and I look forward to hearing from each individual 
here.
    Before we begin, I want to take a moment to highlight what is, in 
my view the most prominent threat to our Blue Economy and that is 
climate change. Climate change is acidifying the waters, warming 
oceans, and creating giant dead zones--jeopardizing the $111 billion 
commercial seafood industry and the promising development of new 
products from our oceans. Sea-level rise is threatening coastal 
communities and the maritime industries that provide millions of jobs.
    There are key steps that we must take now to sustain and grow our 
Nation's blue economy.
    We must strengthen the National Oceanic and Atmospheric 
Administration (NOAA). First, I hope the Administration will commit to 
doubling the budget of NOAA by 2012. Second, currently, NOAA operates 
through more than 200 separate authorization creating overlaps and 
disconnects among different parts of the agency. The U.S. Commission on 
Ocean Policy recommended that Congress establish an organic act for 
NOAA to codify its mission. I support this goal and look forward to 
working with my colleagues and the Administration to enact legislation 
establishing NOAA.
    We also must look for new and innovative ways to plan for uses of 
our oceans and coasts that supports economic growth, protects 
ecological services and unique marine areas, and reduces conflicts 
among users. Balancing use and protection of marine resources for 
current and future generations requires strong science-based management 
of our oceans and coasts, interagency coordination, and Federal-state-
local partnerships. For this reason, I sent a letter to President Obama 
urging the Administration working through the Office of Science and 
Technology Policy, the Council of Environmental Quality, and the 
National Oceanic and Atmospheric Administration to develop a 
comprehensive science-based Federal marine planning framework to guide 
decisions on ocean use and conservation and to promote ecosystem-based 
management.
    In closing I want to state very clearly--for those who live on our 
coasts and those who do not, like my state--we must all be a part of 
the effort to improve the health and well-being of our oceans. 
America's economic growth and the livelihood of so many workers depend 
on the decisions we make now. What is good for the health of our 
coastal communities and oceans is good for the Nation.
    Thank you.

                                  <all>

</pre></body></html>
